           How to Report Fraud
The SSA OIG Fraud Hotline offers a means for you
to provide information on suspected fraud, waste,
and abuse. If you know of current or potentially
illegal or improper activities involving SSA programs
or personnel, we encourage you to contact the SSA
OIG Fraud Hotline.                                                                  Social Security Administration
                                                                                    Office of the Inspector General
Call                   1-800-269-0271
                                                                                    Semiannual Report to Congress
Write                  Social Security Administration
                       Office of the Inspector General
                                                                                    October 1, 2002 thru March 31, 2003
                       Attention: SSA Fraud Hotline
                       P. O. Box 17768
                       Baltimore, MD 21235
Fax                    410-597-0118

Internet               www.socialsecurity.gov/oig

To obtain additional copies of this report, visit our website, www.ssa.gov/oig or
                              call 410-966-4020

                             SSA Pub. No. 85-007
                             Published May 2003




                                                                                                              To Preserve and Protect
Social Security Administration
Office of the Inspector General
Semiannual Report to Congress

Mission Statement                        Vision and Values
By conducting independent and            We are agents of positive change
objective audits, evaluations, and       striving for continuous improvement
investigations, we improve the SSA       in SSA’s programs, operations,                                              Inspector General
programs and operations and protect      and management by proactively
them against fraud, waste, and           seeking new ways to prevent and                                             James G. Huse, Jr.
abuse. We provide timely, useful,        deter fraud, waste, and abuse.
and reliable information and advice      We are committed to integrity              Chief of Staff
                                                                                                              Deputy Inspector General
to Administration officials, Congress,   and to achieving excellence by          Immediate Office of
and the public.                          supporting an environment that         the Inspector General                   Jane E. Vezeris
                                         encourages employee development         Richard A. Rohde
                                         and retention, and fosters diversity
                                         and innovation, while providing a
                                         valuable public service.
                                                                                    Counsel               Assistant Inspector            Assistant Inspector           Assistant Inspector
                                                                                      to the                   General                        General                       General
                                                                                Inspector General             for Audit                  for Investigations         for Executive Operations

                                                                                 Kathy A. Buller          Steven L. Schaeffer           Patrick P. O’Carroll          Stephanie J. Palmer




                                                                                    Deputy Counsel to     Deputy Assistant Inspector   Deputy Assistant Inspector   Deputy Assistant Inspector
                                                                                  the Inspector General      General for Audit         General for Investigations     General for Executive
                                                                                                                                                                           Operations
                                                                                     Glenn E. Sklar             Gale S. Stone               Steve W. Mason             Robert L. Meekins
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Message from the Inspector General
Dramatically changing times have challenged our office during the first
half of fiscal year (FY) 2003. Dangers on the international scene have
added urgency to protecting the integrity of the Social Security number
(SSN), a vital aspect of American life and our homeland security. Given
the heightened threat of terrorism today, failure to protect the SSN’s
integrity can have enormous consequences for our Nation and its citizens.
This number is the single most widely used identifier for Federal and State
Governments as well as the private sector. We continue, in concert with the
Social Security Administration (SSA) and Congress, to support efforts to
further protect the SSN.

Our accomplishments in defending the security of our
homeland and in combating fraud, waste, and abuse have
been achieved through the dedicated efforts of every
staff member. Because of this commitment, we continue
to make significant progress. In this reporting period, our
investigators reported over $293 million in investigative
accomplishments with over $30 million in SSA recoveries,
restitution, fines, settlements, and judgments and over
$239 million in projected savings. Our attorneys reported
over $335,000 in penalties and assessments as part of
our civil monetary penalty program. And finally, our
auditors issued 48 reports with recommendations that
over $94 million in Federal funds could be put to better
use, and identified over $7.6 million in questioned costs.

This Semiannual Report to the Congress covers our
accomplishments for the period of October 1, 2002
through March 31, 2003. It outlines our mission, describes
significant activities, and provides our assessment
of SSA’s top management issues for FY 2003. It also
highlights our work on each of these challenges, including several major
cases and other organizational achievements.

Social Security is a cornerstone of American life. We are continuing to work
with SSA to achieve measurably improved results, and to anticipate future
challenges as we achieve our own goals.

Sincerely,




James G. Huse, Jr.
Inspector General
Semiannual Report to Congress   October 1, 2002 — March 31, 2003
October 1, 2002 — March 31, 2003                                 SSA Office of the Inspector General



Contents
Message from the Inspector General .............................................. i

Introduction to Our Organization .................................................. 1

Significant Activities...................................................................... 4

      Homeland Security Efforts.......................................................... 4

      Fugitive Felon Program .............................................................. 7

      Cooperative Disability Investigations Program ............................... 9

      Civil Monetary Penalty Program..................................................12

      Organizational Accomplishments ................................................15

Significant Management Issues Facing SSA................................. 18

      Issue 1: Homeland Security, SSN Integrity, and SSN Misuse ..........19

      Issue 2: Integrity of the Earnings Reporting Process .....................25

      Issue 3: Management of the Disability Process.............................31

      Issue 4: Fraud Risk ..................................................................34

      Issue 5: Improper Payments .....................................................42

      Issue 6: Critical Infrastructure Protection and Systems Security .....46

      Issue 7: Integrity of the Representative Payee Process..................49

      Issue 8: Electronic Government and Service Delivery....................55

      Issue 9: Budget and Performance Integration ..............................57

      Issue 10: Human Capital ..........................................................62

Appendices.................................................................................. 65

      Appendix A .............................................................................67

      Appendix B .............................................................................69

      Appendix C .............................................................................73

      Appendix D .............................................................................75

      Appendix E .............................................................................77

      Appendix F..............................................................................79

      Appendix G .............................................................................85

      Appendix H .............................................................................87

      Appendix I ..............................................................................89
Semiannual Report to Congress   October 1, 2002 — March 31, 2003
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



Introduction to Our Organization
The Office of the Inspector General (OIG) is comprised of five components:
the Immediate Office of the Inspector General (IO), Office of the Counsel to
the Inspector General (OCIG), Office of Audit (OA), Office of Investigations
(OI), and Office of Executive Operations (OEO).


Immediate Office of the Inspector General
                       The IO provides the Inspector General (IG) and
                       Deputy IG with staff assistance on the full range of
                       their responsibilities and administers a comprehensive
                       Professional Responsibility and Quality Assurance
                       program. This program ensures the adequacy of OIG
                       compliance with its policies and procedures, internal
                       controls, and professional standards. In addition,
                       the IO oversees the Ombudsman program to provide
                       OIG employees with confidential and informal
assistance for resolving work-related conflicts, disputes, and grievances.
The program promotes fair and equitable treatment within OIG and strives
to improve the overall quality of work life for OIG employees. The IO also
directs reviews and takes actions to ensure the adequacy of OIG’s internal
controls in accordance with the Federal Managers’ Financial Integrity Act.


Office of the Counsel to the Inspector General
               OCIG provides independent authoritative legal advice,
               guidance, and counsel to the IG, and senior staff and
                heir components on legal issues, regulatory strategy,
                nd legislative proposals. OCIG also advises the IG on the
                xistence, integration, and interpretation of emerging legal
                uthorities that may affect the mission of the Agency and/or
               OIG. OCIG conducts research to ensure the legality of issues
                eliberated by OIG and reviews OIG work products to make
               certain that they are legally sufficient. In addition, OCIG
drafts legal documents on behalf of OIG, which include regulatory comment
and legislation. Finally, OCIG is responsible for the implementation of the
Civil Monetary Penalty program (CMP), which was delegated to the IG by
the Commissioner of Social Security. This implementation includes the
imposition of penalties and assessments and the settlement and litigation
of CMP cases.




                                                   Significant Activities   •   page 1
Semiannual Report to Congress                        October 1, 2002 — March 31, 2003



         Office of Audit
                     OA conducts and/or supervises comprehensive financial and
                     performance audits of SSA programs and operations and makes
                      ecommendations to ensure that program objectives and
                       perational functions are achieved effectively and efficiently.
                       inancial audits, required by the Chief Financial Officer Act of
                       990 (CFO Act), assess whether SSA’s financial statements
                     fairly present SSA’s financial position, results of operations,
         and cash flow. Performance audits review the economy, efficiency, and
         effectiveness of SSA’s programs and operations. OA also conducts short-
         term management and program evaluations and projects focused on issues
         of concern to SSA, Congress, and the general public. Evaluations often
         focus on identifying and recommending ways to prevent and minimize
         program and operational fraud, waste, and abuse as well as inefficiency and
         ineffectiveness, rather than detecting problems after they occur.


         Office of Investigations
                        OI conducts and coordinates investigative activity related to
                        fraud, waste, abuse, and mismanagement in SSA programs
                        and operations. These activities include wrongdoing by
                        applicants, grantees and contractors, or by SSA employees
                        in the performance of their official duties. This office serves
                        as OIG liaison to the Department of Justice (DOJ) on all
                        matters relating to the investigations of SSA programs and
                        personnel, and reports to the Attorney General when OIG
         has reason to believe Federal criminal law has been violated. OI works
         with other investigative agencies and organizations on special projects and
         assignments. In support of its mission, OI carries out and maintains an
         internal quality assurance system.


         Office of Executive Operations
                        OEO assists the IG with the formulation and execution
                        of OIG’s budget and confers with the Office of the
                        Commissioner, the Office of Management and Budget
                         OMB), and the Congress on budget matters. OEO conducts
                        management analyses and establishes and coordinates
                        general administrative management policies for OIG. This
                        office serves as OIG liaison on personnel management
         and other administrative and management policies and practices, and
         equal employment opportunity and civil rights matters. This office is also
         responsible for the development, design, redesign, and maintenance




page 2    •   Significant Activities
October 1, 2002 — March 31, 2003                 SSA Office of the Inspector General



of major automated systems throughout OIG and for the security of
sensitive data relating to investigations, audits and legal proceedings
which is kept on OIG’s systems as well as the administration of systems
security plans for OIG. OEO is responsible for and coordinates OIG’s
strategic planning function and the development and implementation of
performance measures required by the Government Performance and
Results Act (GPRA). In addition, OEO administers programs for public
affairs, interagency activities, OIG reporting requirements, publications,
and congressional inquiries.




                                                 Significant Activities   •   page 3
Semiannual Report to Congress                         October 1, 2002 — March 31, 2003



         Significant Activities
         This year has been a remarkable one for our organization. Since our
         establishment in 1995, we have built an organization of highly skilled
         professionals focusing on critical issues in SSA’s fight against fraud, waste,
         and abuse. We also have a significant interagency role in homeland security
         and the many challenges of wartime. We help SSA perform its service and
         stewardship functions both faster and smarter, and make the best use of
         technological advances to ensure SSA’s success. We, too, have made steady
         progress along these lines while expanding our role. Our effectiveness is
         illustrated by the sustained accomplishments highlighted in this report.

         Our components collaborate as one OIG to address each critical issue
         while capitalizing on individual staff skills to deliver the best possible work
         product. This section details several of our most significant activities in this
         reporting period, including our:

           • Homeland Security Efforts

           • Fugitive Felon Program

           • Cooperative Disability Investigations Program

           • Civil Monetary Penalty Program

           • Organizational Accomplishments


         Homeland Security Efforts
         Our ongoing involvement in homeland security is mandated by the SSN’s
         role in establishing false identities and in facilitating the commission of
         financial crimes which can be used to finance terrorism. Our core role is to
         protect the integrity of the enumeration process to ensure the accuracy of
         SSA’s records.

         Today it is unrealistic to believe that the SSN is simply a number for tracking
         workers’ earnings and the payment of social insurance benefits. The SSN
         has become the de facto national identifier, and is the key to social, legal,
         and financial assimilation in this country. Protecting the integrity of that
         identifier is as important to our homeland security as patrolling our borders
         or airport screening.

         The evolution of critical information infrastructure and systems security as
         one of SSA’s most significant management issues further heightens OIG’s
         homeland security role. People and organizations have more tools than ever
         for disrupting or sabotaging important operations. The dramatic growth in
         computer interconnectivity carries with it the risk that such operations will




page 4    •   Significant Activities
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



be disrupted. Sensitive data can be compromised, and key processes can
be interrupted.

With that in mind, our support for homeland security has taken several
forms:

  • Working with congressional committees to address the threats to
    SSN integrity and measures we believe can reduce those threats
    significantly.

  • Participating in a variety of anti-terrorism task forces, including airport
    security operations conducted across the country.

  • Conducting audits and reporting on areas where SSA can further
    secure the integrity of the SSN.

Working With Congress

After the events of September 11, we provided Congress our assessment
of SSA’s business processes for ensuring SSN integrity. We based this
assessment on extensive prior audit and investigative work. We continue
to give Congress our evaluation of suggested legislative changes and new
techniques to improve SSN verification and decrease identity theft
crimes.

Throughout our testimony and other responses to Congress, we
have stressed the importance of interagency data verification and
data matching agreements between Federal and State agencies.
The Immigration and Naturalization Service (INS) and SSA “should
find a way to authenticate immigration documents before an SSN
is issued,” IG Huse told a Senate Finance Committee hearing last
August. “We must ensure that no SSN is issued based on INS
documents that a simple interagency check could have revealed
to be fraudulent.” SSA began verifying alien status for all noncitizen SSN
applicants with INS in September 2002. INS has been incorporated into the
new Department of Homeland Security (DHS).

Participating in Anti-terrorism Task Forces

We play a key role as part of various national, regional, and local anti-
terrorism task forces, along with such agencies as DOJ, DHS, and the
Federal Aviation Administration. We became immediately involved and
remained involved in the struggle against terrorism because of the nature
of our jurisdiction with respect to the integrity and use of SSNs and the
records SSA maintains as a consequence of that activity.

Since the first airport operation in Salt Lake City in December 2001, we have
participated in 51 airport security operations across the country, with 14 of


                                                    Significant Activities   •    page 5
Semiannual Report to Congress                        October 1, 2002 — March 31, 2003



         these occurring in this semiannual period. Working with Joint Terrorism Task
         Forces and other Federal agencies under the aegis of the Offices of United
         States Attorneys, we have helped to ensure that no airport employee who
         has misrepresented his or her SSN and identity has access to secure areas
         of the Nation’s airports. The primary charges have been related to SSN
         misuse, false statements, and INS/DHS violations.

         The following cases illustrate our efforts against terrorism in this reporting
         period:

                            Our Boston Field Division took part in an interagency
                            homeland security project at the Sikorsky Aircraft
                            Corporation coordinated by the United States Attorney’s
                            Office, which also included the Defense Criminal
                            Investigative Service and INS. The corporation is the
                            sole source for Blackhawk and Comanche helicopters
         and maintains the presidential helicopter fleet. The effort resulted in the
         arrests of 15 people who used false SSNs and fraudulent documents to gain
         security badges allowing them access to secure areas at the facility.

                           Our Los Angeles Field Division investigated a man
                           who was arrested in Orlando, Florida after authorities
                           found him near a pay phone that was used to make
                           bomb threats to the Orlando Police Department. He
                           had various identification documents in his possession.
                           These included a Palestinian passport, identity cards
         from 3 States, and Social Security cards under 3 identities. He was also
         found carrying a package containing several plastic box-cutters. He was
         incarcerated and will be deported once he completes his sentence.

                             Our Boston Field Division investigated and disbanded a
                             ring that helped over 150 people, mostly from the Middle
                             East, fraudulently obtain Social Security cards from SSA,
                             along with genuine U.S. visas from INS. The ringleader
                             was incarcerated, fined $100,400, and will be deported
                             once his sentence is completed. His 5 co-conspirators
         were either deported or incarcerated. The judge noted that this ring’s
         activities posed a threat to our homeland security.

         Conducting Audits

         We have also conducted several important audits that consider the
         impact of SSN integrity issues on homeland security. The Chairman of
         the Subcommittee on Social Security, House Ways and Means Committee,
         asked us to examine how Federal agencies disseminate and control the
         use of SSNs. After consultation on this request with the President’s Council



page 6    •   Significant Activities
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



on Integrity and Efficiency (PCIE), we took the lead on an audit in which
15 OIGs, including our office, assessed their own agency’s practices. The
final report noted that despite safeguards to prevent improper access, as
well as disclosure and use of SSNs by external entities, many agencies
remain at risk. This audit report incorporated data from other audit work
we performed at the request of PCIE. This work followed up on a May 2002
General Accounting Office (GAO) review of SSN safeguards by providing
a more in-depth analysis of SSA’s controls over the access, disclosure,
and use of SSNs by external entities. Another audit report in this period
determined that SSA employees do not routinely refer potentially fraudulent
SSN applications to us for investigation. These reports are discussed in
the section on significant management issues facing SSA under Homeland
Security, SSN Integrity, and SSN Misuse.


Fugitive Felon Program
The Fugitive Felon Program was established as a result of the enactment
of the Personal Responsibility and Work Opportunity Reconciliation Act of

Act, on August 22, 1996. Generally, this law makes a perso
to receive Supplemental Security Income (SSI) payments du
any month in which the recipient is:

  • Fleeing to avoid prosecution for a crime that is a
    felony.

  • Fleeing to avoid custody or confinement after conviction
    under the laws of the place from which the person flee
    for a crime or an attempt to commit a crime which is
    felony under the laws of the place from which the pe
    flees, or which, in the case of the State of New Jersey
    crime of the first through fourth degree.

  • Violating a condition of probation or parole imposed
    Federal or State law.

The Welfare Reform Act enables SSA to suspend SSI payments to fugitives
and parole and probation violators, and allows us to provide vital information
to law enforcement agencies. “We have always believed that criminals
fleeing from justice should not have the support of Federal benefits,”
IG Huse told the Subcommittee on Social Security of the House Committee
on Ways and Means at its February 27, 2003 hearing. Investigators in our
offices often work hand-in-hand with local law enforcement officers in
locating and apprehending fugitive felons, and in developing fugitive cases
from a variety of referral sources.




                                                    Significant Activities   •   page 7
Semiannual Report to Congress                         October 1, 2002 — March 31, 2003



         While the program was very successful using manual data searches and direct
         referrals, using automated data matches to compare warrant information
         from the National Crime Information Center (NCIC), the Federal Bureau of
         Investigation (FBI), the United States Marshals Service (USMS) and State
         agencies with SSA’s SSI rolls has proved a much more efficient way to carry
         out the program. SSA currently has computer matching agreements with
         25 States and several police departments. SSA is still pursuing matching
         agreements with the balance of the States that do not enter all of their
         felony warrant data into NCIC. We continue working with SSA to further
         refine and enhance the automated process.

         The following cases exemplify our efforts under this program:

                            Our Chicago Field Division participated in a 3-day fugitive
                            sweep as part of the Violent Crimes/Street Gang Alliance
                            Task Force that combined the resources of Federal,
                            State, county and local law enforcement agencies from
                            the Detroit metropolitan area. Our agents contacted
                            approximately 100 subjects who were receiving SSI
         benefits to get them to come to our office for arrest. The sweep resulted in
         over 100 arrests for a variety of felony offenses including arson, criminal
         sexual conduct, felonious assault, and narcotics and firearms violations.

                             Our Boston Field Division helped arrest a woman who
                             had escaped from prison while serving a narcotics-
                             related sentence. The case resulted from our first
                             electronic data match with Connecticut’s State Police
                             felony warrant file. The woman applied for SSI benefits
         in January 2003, using a Hartford address, where she was ultimately
         arrested. She will serve her remaining sentence.

         The table below demonstrates the success of this program for this reporting
         period and since its inception on August 1, 1996.


                               Fugitive Felon Program Results


                                   October 1, 2002 to         Since inception on
                                    March 31, 2003               August 1996

          Fugitives
                                         19,951                     108,695
          Investigated

          Fugitives Arrested              4,320                      14,630

          Fraud Loss /
                                       $61,903,239               $285,614,397
          Overpayment

          Projected Savings            $128,709,490              $469,645,464

page 8    •   Significant Activities
October 1, 2002 — March 31, 2003                     SSA Office of the Inspector General



Cooperative Disability Investigations Program
SSA’s Office of Operations, Office of Disability Programs, and Office of
Disability Determinations along with OI manage the Cooperative Disability
Investigations (CDI) program. The mission of the CDI program is to obtain
evidence that can resolve questions of fraud in SSA’s disability programs.

CDI units are composed of OI special agents and personnel from SSA’s
Office of Operations, the States’ Disability Determination Services (DDS),
and State or local law enforcement. They use their combined skills and
specialized knowledge to:

  • Provide the DDS with investigative evidence
    for use in making timely and accurate
    disability eligibility determinations.

  • Seek criminal and/or civil prosecution of
    applicants and beneficiaries and refer cases
    for consideration of CMPs and administrative
    sanctions when appropriate.

  • Identify, investigate, and seek prosecution
    of doctors, lawyers, interpreters, and other
    third parties who facilitate disability fraud.

In January 2003, GAO acknowledged the CDI
program by stating that we have “also increased
the level of resources and staff devoted to
investigating SSI fraud and abuse. Key among
these efforts is the formation of CDI teams
in [several] field locations. These teams are
designed to identify fraud and abuse before SSI
benefits are approved and paid.”

Seventeen units have been opened in sixteen States since FY 1998. We
plan to add CDI units on a year-to-year basis, depending on availability of
funds.

The following table outlines our CDI Program accomplishments for this
reporting period.




                                                     Significant Activities   •   page 9
Semiannual Report to Congress                                        October 1, 2002 — March 31, 2003



                     Cooperative Disability Investigations Program Results
                           October 1, 2002 through March 31, 2003

           State         Allegations Confirmed SSA Recoveries SSA Savings*                      Non-SSA
                          Received Fraud Cases & Restitution                                    Savings*
      Arizona                   37               8                  0         $465,500               $124,680
      California               180             98          $456,309         $5,675,052            $4,342,935
      Florida                   81             58          $178,428         $3,652,494            $1,655,870
      Georgia                  139             86                   0       $5,196,508            $2,052,379
      Illinois                  67             36            $10,000        $2,372,440               $854,406
      Louisiana                105             37                   0       $2,224,376               $737,697
      Massachusetts             44             18                   0       $1,131,066               $510,430
      Missouri                  76             58             $2,528        $2,922,100            $1,553,000
      New Jersey               172             31          $135,696         $1,919,745            $1,419,395
      New York                 137             89                   0       $5,715,360            $5,872,650
      Ohio                      86               7                  0         $465,500                        0
      Oregon                   127             87                   0         5,210,940           $4,130,275
      Tennessee                 59             32            $20,991        $1,909,546            $1,079,480
      Texas                     94             58                   0       $3,161,360            $1,655,410
      Virginia                  49             20            $75,283        $1,168,044               $509,950
      Washington                30             10                   0         $504,253               $508,800
      Totals                 1,483           733          $879,235       $43,694,284           $27,007,357

  *     When a CDI investigation supports the cessation of an in-pay case, SSA program savings are calculated
        by multiplying the actual monthly benefit times 60 months. Non-SSA savings are also projected over 60
        months whenever another governmental program withholds benefits as a result of CDI investigations, using
        estimated or actual benefit amounts documented by the responsible agency.




          CDI Case Highlights
          The following cases highlight the success of the CDI program.

                             Our Oakland CDI unit investigated a California woman
                             serving as representative payee for her husband and
                             her children, all of whom received disability benefits for
                             mental impairments. We found that each member of
                             the family had established several fictitious identities
                             and SSNs, and improperly obtained $456,309 in
          SSI disability benefits, as well as county welfare benefits and some
          $2 million from numerous unrelated scams. The husband and wife were
          each incarcerated for 10 years, and ordered to pay joint restitution of
          $456,309 to SSA, $19,189 to Alameda County, and $1,002,529 to their
          scam victims. Their benefits were terminated.




page 10          •    Significant Activities
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



                  Our Atlanta CDI unit investigated a report from a
                  DDS that a woman had received disability benefits for
                  10 years with no history of medical treatment. She
                  claimed to be totally dependent on her mother and
                  incapable of independent activity, and her mother
                  confirmed the claim. Our agents interviewed neighbors
who revealed the woman did not live with her mother, but had her own
residence. A neighbor said he had seen her at a local bar, and its owner
employed her as a part-time waitress and described her as his “best
employee.” The woman’s disability benefits were stopped.

                      Our Boston CDI unit investigated a 36-year-old
                      Massachusetts man, who had received disability benefits
                      since 1992, and said during a continuing disability
                      review (CDR) that he was disabled by chronic back pain
                      and had trouble walking, standing, or sitting. He said he
                      could only be up and about for an hour at a time and
couldn’t drive for long periods. Our investigators confirmed a report that
the man ran his own construction business, and witnessed him performing
a variety of difficult physical tasks. His disability benefits were stopped.

                  Our Chicago CDI unit investigated an Illinois woman who
                  claimed a mental disorder prevented her from working
                  because she was unable to cook, drive, hold things, or
                  bend over. The woman said she was violent and unable
                  to socialize with other people. We found she worked
                  full time for a book binding company with 40-50 other
employees, standing for 8 hours a day, operating machinery, and packing
boxes. The manager and supervisor described her as a nice person whom
everyone loved. Her disability claim was denied.

                   Our Nashville CDI unit investigated a 57-year-old
                   cement worker who said he had not worked since
                   having a stroke. However, during an interview, an SSA
                   employee noticed cement dust on his shoes and cap.
                   The employee referred the case to our agents, who
                   observed the man driving a commercial van, setting
concrete forms, using construction tools, lifting equipment, and pouring
concrete. As a result of our investigation, his disability claim was denied.

                    Our Houston CDI unit pursued a tip on a 45-year-old
                    Texas woman who filed for disability benefits, claiming
                    back problems and difficulty with her memory and
                    making decisions. An anonymous caller told SSA the
                    woman worked in a bar every day, which we confirmed.
                    The woman told our undercover investigators she had


                                                   Significant Activities   •   page 11
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       worked at the bar off and on for the past 8 years and got paid “under the
       table.” She said she had once had back problems, but even though she now
       felt well, she was going to “get on disability.” Her claim was denied.


       Civil Monetary Penalty Program
       OCIG administers the CMP enforcement statutes under a delegation of
       authority from SSA’s Commissioner, which allows OIG to impose CMPs
       against violators of sections 1129 and 1140 of the Social Security Act.
       Based on this delegation, we drafted and published regulations, trained
       legal and investigative staff and established an infrastructure that included
       placing attorneys in several OI Field Divisions to support this successful
       enforcement program. OI’s investigative work provides an important
       contribution to these cases. Since FY 1998, OCIG has imposed over
       $2.3 million in penalties and assessments.

       False Statements Under Section 1129

       Section 1129 prohibits making false statements or representations of
       material facts in connection with obtaining or retaining benefits or payments
       under titles II, VIII, or XVI of the Act. After consultation with DOJ, we are
       authorized to propose penalties of up to $5,000 for each false statement or
       representation, as well as an assessment of up to twice the amount of any
       resulting overpayment.

       Our enforcement efforts have been enhanced as our investigative
       organization matures. Using our CMP enforcement tools, we have imposed
       over $2.3 million in penalties and assessments since FY 1998 and Congress
       continues to introduce new legislation that would expand CMP authority.

       The following table and cases highlight our accomplishments for this
       reporting period.


                     False Statements Under Section 1129 Results


                        October 1, 2002 through March 31, 2003

          Cases Received                                               37

          CMP Cases Initiated                                          29

          CMP Cases Closed                                             61

          CMP Penalties and Assessments                             $300,511

          Number of Hearings Requested                                  6



page 12    •   Significant Activities
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



False Statements Case Highlights
                   A Michigan car dealership agreed to pay one of its
                   employees under his wife’s name and SSN so that the
                   employee’s earnings would not be properly reported to
                   SSA, thereby rendering him ineligible for SSI payments.
                   The employee was criminally prosecuted, and agreed to
testify against the company’s chief executive officer (CEO). A jury found the
CEO guilty of making false statements. OCIG proposed a CMP against the
corporation that owned the car dealership and its principal for knowingly
making false statements on the employee’s W-2 forms it submitted to SSA,
ultimately settling the CMP action for $25,000.

                 A Connecticut SSI recipient misrepresented her living
                 arrangements and income so she could continue receiving
                 SSI payments after her marriage. She stated that neither
                 she nor her spouse earned any money, though her
                 husband made over $70,000 a year. This resulted in a
penalty and assessment totaling $30,592.

                    An Illinois woman serving as the representative payee
                    for her son, who received SSI for a mental impairment,
                    provided numerous false statements to SSA to keep
                    collecting the son’s benefits for her own use while
                    he was incarcerated. Most notably, she falsely stated
                    that her son had not moved from his home and even
provided the name and address of the “landlord” of his apartment while he
was in prison. This resulted in $46,072 in penalties and assessments.

Misleading Advertising Under Section 1140

Section 1140 prohibits the use of SSA’s program words, letters, symbols,
or emblems in advertisements or other communications in a manner
that falsely conveys SSA’s approval, endorsement, or authorization. Each
misleading communication is subject to a maximum $5,000 penalty.

In his February 27, 2003 testimony before the Subcommittee on
Social Security, IG Huse urged Congress to strengthen Section
1140 by:

  • Requiring entities to clearly state that the product or service
    they offer for a fee is available directly from SSA free of
    charge.

  • Expanding the list of prohibited terms to include many of
    those that seniors and others commonly associate with
    Federal benefits, especially SSA programs and benefits.



                                                  Significant Activities   •   page 13
Semiannual Report to Congress                       October 1, 2002 — March 31, 2003



       Our nationwide enforcement efforts in this area are sending a clear message
       to companies that deceive senior citizens under the name and reputation of
       Social Security.

       The following table and cases highlight our accomplishments for this
       reporting period.


                    Misleading Advertising Under Section 1140 Results


                             October 1, 2002 through March 31, 2003

           Complaints Received                                         33

           New Cases Opened                                             26

           Cases Closed                                                 20

           No Violation                                                 14

           Voluntary Compliance                                         5

           Settlement Agreement (of cases/amount)                   1/$35,000

           Penalty/Court Action (of cases/amount)                  1/$167,1381

           Number of Hearings Requested                                 1

       1    This case is presently on appeal.

       Misleading Advertising Case Highlights

                        By using Social Security program words in conjunction
                        with other misleading tactics in its direct mail campaigns,
                        the National Federation of Retired Persons (NFRP) was
                        able to elicit personal information from senior citizens
                        under the appearance that SSA was requesting this
       information. The NFRP would turn this personal information over to an
       insurance representative for the purpose of selling insurance. After several
       cease and desist orders, we proposed an $83,569 CMP against the NFRP,
       which was upheld with a further finding that doubling the proposed penalty
       was warranted. The NFRP is appealing the decision.

                       Distribution Center, a Texas corporation, mailed deceptive
                       solicitations to senior citizens for private burial and
                       Medicare supplemental insurance which appeared to be
                       connected with or issued by the Federal Government.
                       After numerous attempts to bring the corporation into
       compliance, OCIG joined the U.S. Attorney in obtaining injunctive relief,


page 14     •   Significant Activities
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



prohibiting further mailings, freezing assets, detaining mail, and authorizing
a search of the corporation’s premises. The search yielded evidence that
resulted in four additional CMP cases against insurance agencies and
companies that were customers of Distribution Center. The original CMP
action against Distribution Center was ultimately settled for $35,000.
Our Dallas Field Division provided invaluable support to OCIG during the
injunctive portion of this case.


Organizational Accomplishments
During this reporting period, we have strengthened our emphasis on
reinforcing and integrating our work together as one OIG. This was the
theme of an OIG Managers Meeting at SSA Headquarters in Baltimore on
March 18-19, 2003. IG Huse and Deputy IG Jane E. Vezeris opened the
meeting with a forward-looking presentation. Participants from around
the country were updated on administrative and legislative issues and our
new Strategic Plan. In addition, several OIG staff members received the
prestigious IG’s Award for their contributions to our work.

These and other awards presented
throughout the reporting period give
individual dimension to the accomplishments
of our components. For instance, in
its 48 reports in this period, OA issued
recommendations that would allow over
$94 million in Federal funds to be put to
better use, and identified over $7.6 million in
questioned costs. Also, OCIG’s enforcement
of CMP statutes resulted in over $335,000
in penalties and assessments for violations
of sections 1129 and 1140 of the Social
Security Act.

On the investigative side, OI received
51,311 allegations from a variety of sources
that cut across SSA programs, as shown in
the following tables. In addition, during this
reporting period, our Fraud Hotline referrals
to SSA offices resulted in the identification
of nearly $2 million in overpayments that
were posted to SSA records. These referrals
frequently resulted in the suspension of benefits to individuals who were no
longer entitled or eligible to receive these benefits.




                                                  Significant Activities   •   page 15
Semiannual Report to Congress                                       October 1, 2002 — March 31, 2003



       The following tables represent the collective efforts of our OI headquarters
       and field divisions, including our Fraud Hotline.



                                     Investigative Results
                            October 1, 2002 through March 31, 2003

           Allegations Received                                                                    51,311

           Cases Opened                                                                              9,170

           Cases Closed                                                                              9,389

           Arrests/Indictments                                                                       2,677

           Total Judicial Actions                                                                    5,655

             Criminal Convictions                                                                     1,008

             Civil/CMP                                                                                    35

             Illegal Alien Apprehensions                                                                 274

             Fugitive Felon Apprehensions                                                            4,3381
       1    This figure includes 18 additional apprehensions that resulted from field investigations outside the
            purview of the Fugitive Felon Program discussed on page 8.




                                Allegations Received by Source
                            October 1, 2002 through March 31, 2003

           Private Citizens                                                                         23,951

           Anonymous                                                                                  8,782

           SSA Employees                                                                              7,402

           Law Enforcement                                                                          10,120

           Public Agencies                                                                               323

           Beneficiaries                                                                                 726

           Other                                                                                            7

           TOTAL                                                                                   51,311




page 16     •   Significant Activities
October 1, 2002 — March 31, 2003              SSA Office of the Inspector General




                    Allegations Received by Category
                 October 1, 2002 through March 31, 2003

SSN                                                           24,340

SSI Disability                                                14,175

Disability Insurance                                            7,456

Old Age and Survivors Insurance                                 3,364

Other                                                           1,556

SSI Aged                                                          188

Employee                                                          232

TOTAL                                                        51,311



                             Funds Reported
                 October 1, 2002 through March 31, 2003

                                      SSA Funds      Non-SSA Funds

Scheduled Recoveries                   $17,136,709           $530,761

Fines                                     $347,083           $470,155

Settlements/Judgments                     $120,788           $150,500

Restitution                            $13,091,240        $22,307,892

Estimated Savings                     $211,463,043        $27,807,349

TOTALS                               $242,158,863       $51,266,657

GRAND TOTALS                                           $293,425,520




                                             Significant Activities   •   page 17
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       Significant Management Issues Facing SSA
       Every year we assess the most significant management issues facing SSA.
       This process is valuable in focusing congressional attention on mission-
       critical management problems and serves as a catalyst for resolving
       significant issues across the Agency. Based on legislative mandates and
       our audit and investigative work, we believe the 10 most significant
       management issues facing SSA in FY 2003 are:

           1. Homeland Security, SSN Integrity, and SSN Misuse

           2. Integrity of the Earnings Reporting Process

           3. Management of the Disability Process

           4. Fraud Risk

           5. Improper Payments

           6. Critical Infrastructure Protection and Systems Security

           7. Integrity of the Representative Payee Process

           8. Electronic Government and Service Delivery

           9. Budget and Performance Integration

          10. Human Capital

       We have discussed these issues with SSA and acknowledge that SSA has
       made progress in these areas.

       The following section discusses each of these critical management issues
       facing SSA, as well as our related audit and investigative work for this
       reporting period.




page 18    •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



Issue 1: Homeland Security, SSN Integrity, and
SSN Misuse
The SSN is the single most widely used identifier for Federal and State
governments as well as the private sector. During FY 2002, SSA issued over
18 million original and replacement Social Security cards.

The public’s growing concern with SSN misuse and identity theft is evident
from the large number of allegations our Fraud Hotline receives annually.
Last year the Federal Trade Commission (FTC) reported receiving 161,819
complaints of identity theft, nearly twice the 2001 figure. The most common
types of identity theft crimes reported are credit card fraud, unauthorized
attainment of utility services, and bank account and loan fraud.

Our Fraud Hotline guides victims of identity theft to the FTC for information
and assistance in resolving financial and other problems that can result
from this crime. We focus on the use of counterfeit Government documents
and fraudulent attainment of Government benefits such as Social Security
and SSI. SSN misuse crimes affect individuals, government agencies, and
private companies, often causing tremendous losses. To successfully address
SSN misuse, we believe SSA must focus on the integrity of the SSN from the
time a number is assigned through the life span of the numberholder, and
even after a numberholder’s death.

“Given the heightened threat of terrorism today,” IG Huse told a hearing of
the Subcommittee on Labor, Health and Human Services and Education of
the House Committee on Appropriations on March 4, 2003, “failure to protect
the SSN’s integrity can have enormous consequences for our Nation and its
citizens. Now more than ever, SSA must be particularly cautious in striking
a balance between serving the public and SSN integrity.” We recognize
that increased SSN integrity measures will impact the time necessary to
process SSN applications. However, we believe the Agency has a duty to the
American public to safeguard the integrity of the enumeration process.

With the magnitude of SSN misuse, we believe SSA must employ effective
front-end controls in its enumeration process. Likewise, additional
techniques, such as data mining, biometrics, and enhanced systems
controls are critical in the fight against SSN misuse.

To effectively combat SSN misuse and identity theft, we believe SSA should
take the following steps.

  • Establish a reasonable threshold for the number of replacement Social
    Security cards an individual may obtain during a year and over a
    lifetime.




                                                   Management Issues •       page 19
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



          • Expedite systems controls that would interrupt SSN assignment when
            SSA mails multiple cards to common addresses or when parents claim
            an improbably large number of children.

          • Continue to educate SSA staff about counterfeit documents.

       Additionally, as we reported to Congress, we believe Congress and SSA
       should consider the following steps:

          • Increase the number of investigative and enforcement resources
            provided for SSN misuse and identity theft cases.

          • Expand the Agency’s data matching activities with other Federal, State,
            and local government entities.

          • Explore the use of other innovative technologies, such as biometrics, in
            the enumeration process.

       In this reporting period, we conducted the following reviews in this area.

       Federal Agencies’ Controls Over the Access, Disclosure and Use of
       SSNs by External Entities

       The Chairman of the Subcommittee on Social Security, House Ways and
       Means Committee, asked us to look at the way Federal agencies disseminate
       and control the use of SSNs. After consulting with the PCIE, we served as
       the audit lead for 15 participating OIGs and completed this review.

       Despite Federal agencies’ safeguards to prevent external entities from
       improperly accessing, disclosing, and using SSNs, agencies remained at
       risk to such activity. Findings included:

          • Fourteen lacked adequate controls over contractors’ access to and
            use of SSNs (for example, eight agencies had not performed site
            inspections to ensure contractors upheld their obligation to protect the
            confidentiality and security of SSNs).

          • Nine agencies had inadequate controls over access to SSNs maintained
            in their computer systems (for example, one agency granted systems
            access before completing background security checks while others were
            not monitoring user access to ensure users were still authorized).

          • Two did not have adequate controls over the access to and use of
            SSNs by external entities such as physicians and the general public
            (for example, one OIG reported its agency had no standard contract
            language to include Privacy Act safeguards).

          • One agency did not make legal and informed SSN disclosures (this OIG
            identified instances in which the agency did not inform research study
            participants that providing their SSNs was voluntary).


page 20   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



We recognize Federal agencies’ efforts cannot eliminate the potential that
unscrupulous individuals may inappropriately acquire and misuse SSNs.
However, we believe each Federal agency has a duty to safeguard the
integrity of SSNs by reducing opportunities for misuse. Given the potential
risk for individuals to engage in such activity, we believe Federal agencies
would benefit by strengthening some of their controls over the access,
disclosure, and use of SSNs by external entities.

Review of SSA Controls over the Access, Disclosure and Use of
SSNs by External Entities

We were asked to follow up on a previous review by the GAO entitled,
“Social Security Numbers: Government Benefits from SSN Use but Could
Provide Better Safeguards” (GAO-02-352, issued May 2002). Our objective
was to assess and provide a more in-depth analysis of SSA’s controls over
the access, disclosure, and use of SSNs by external entities.

In the earlier report, GAO conducted a study of how and to what extent
Federal, State, and local government agencies use individuals’ SSNs and
how these entities safeguard records or documents containing those SSNs.

We identified instances in which SSA personnel:

  • Unnecessarily displayed SSNs on documents it sent to external entities
    that may not have had a need to know.

  • Did not adequately monitor contractors’ access and use of SSNs.

Additionally, based on our review of recent audit reports related to SSA’s
information security environment, we believe SSA may be vulnerable to
unauthorized access to its computer systems containing SSNs.

We concluded that SSA could strengthen some of its controls over the
access, disclosure, and use of SSNs and recommended that SSA:

  • Limit SSN display on documents to external entities to those that have
    a need to know.

  • Monitor contractors’ access, disclosure, and use of SSNs to ensure they
    uphold their obligation to protect the confidentiality and security of
    SSNs.

  • Continue to address identified weaknesses within its information
    security environment to better safeguard SSNs.

SSA agreed with our recommendations.




                                                   Management Issues •      page 21
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       Referring Potentially Fraudulent Enumeration Applications to OIG

       Our objective was to determine the extent that SSA adhered to its policy of
       referring potentially fraudulent SSN applications to OIG for investigation.

       We found that SSA employees do not routinely refer potentially fraudulent
       SSN applications to us for investigation. Although SSA policy requires these
       referrals, our review found that less than 30 percent were referred because
       SSA employees see little benefit in referring potential SSN fraud cases to
       us. Yet, when cases of suspected fraud are not referred, the SSN application
       process becomes even more susceptible to fraud.

       We recommended that SSA:

          1. Emphasize the availability of work credit for fraud referrals.

          2. Ensure field office (FO) compliance with the policy mandating the
             referral of potentially fraudulent SSN application allegations.

          3. Change its policy to have employees retain fraudulent or suspect
             documentation submitted by SSN applicants.

          4. Identify alternative administrative sanctions that would discourage
             people from fraudulently attempting to obtain SSNs.

          5. Actively seek appropriate authority for imposing CMPs and
             administrative sanctions for fraudulent attempts to obtain SSNs.

       SSA agreed with most of our recommendations. In February 2003, the
       Agency issued an informational message to all SSA facility managers
       highlighting the importance of formally referring suspected fraud cases to
       us. SSA will also actively seek appropriate authority to impose CMPs for
       fraudulent attempts to obtain SSNs. SSA disagreed with recommendation
       3 because at the time of the initial SSN interview, SSA employees do not
       know whether a document will be determined fraudulent. SSA’s current
       procedure instructs employees to copy documents in suspect cases due to
       concerns for the safety of SSA employees. While we recognize that this is a
       legitimate concern, we continue to believe that the optimal solution is the
       confiscation of potentially fraudulent documents. Therefore, in the event
       SSA is unable to provide original documents, we will work with copies of the
       questionable documents until such time that the Agency is able to address
       its concerns.

       SSN Integrity and Misuse Case Highlights

       Assaults on the integrity of the SSN and the enumeration process, as well
       as cases of simple SSN misuse and identity theft, have risen sharply in past
       years. Examples of our work in this reporting period include:



page 22   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



                   Our Denver Field Division, INS (now in DHS), and local
                   law enforcement completed a joint investigation of a
                   Mexico City organization with an estimated $2-3 million
                   annual income from sales of counterfeit documents it
                   manufactured and sold primarily to illegal aliens. OIG
                   and INS agents identified the organization’s leaders and
used search warrants to seize fake Government documents and production
equipment. The organizational leader was incarcerated and the 9 other co-
conspirators were sent to jail and/or deported.

                   A New York Field Division investigator discovered an
                   offer on eBay’s web site to sell a list of 2,600 SSNs with
                   matching names. The suspect advertised that he could
                   provide 8,000 to 10,000 additional SSNs with matching
                   names at a cost of $1 per name. Because the subject
                   operated in North Carolina, our Atlanta Field Division,
along with the U.S. Postal Inspection Service and the Secret Service, set up
an undercover buy. They purchased 100 SSNs which belonged to University
of North Carolina Pembroke staff, students and applicants, the source of
at least 98 percent of the advertised list of 2,600 SSNs. The man was
incarcerated.

                   Our Boston Field Division investigated an illegal alien
                   who sold information to other undocumented aliens and
                   assisted them in applying for identification documents
                   from INS (now in DHS), the State Department, SSA, and
                   the California Department of Motor Vehicles. A lengthy
                   investigation in cooperation with several Federal and
State agencies proved the subject had assumed the identity of an American
citizen, and had obtained a Social Security card, a passport, a State drivers
license and a business license under that identity. He was incarcerated,
fined $600, and after serving his sentence he will be returned to DHS for
deportation.

                     The FBI asked our Dallas Field Division to help
                     investigate a Little Rock, Arkansas, man who created
                     a small corporation to buy distressed real estate, then
                     rehabilitate the properties for resale. Using variations
                     of his name and SSN, he obtained three different
                     mortgages totaling over $224,000. He was incarcerated
and ordered to pay restitution of $120,061 to 2 financial institutions, and to
forfeit a fraudulently-obtained house valued at $79,900.




                                                    Management Issues •       page 23
Semiannual Report to Congress                     October 1, 2002 — March 31, 2003



                         Our Seattle Field Division cracked a conspiracy in which
                         6 people were responsible for more than $500,000 of
                         fraud under false identities they established. Beginning
                         in 1993, they obtained identification documents from
                         the Washington Department of Licensing in more than
                         50 false identities and SSNs. Using these identities, they
       opened bank accounts, committed fraud, and wrote worthless checks to
       merchants. All 6 were incarcerated for as long as 12 years and ordered to
       pay restitution.

                          Our Dallas Field Division worked with the Internal
                          Revenue Service (IRS) to investigate a man who, as
                          part of a conspiracy, used the identities and SSNs of
                          33 different victims to file 53 fraudulent Federal income
                          tax returns to obtain over $40,000 in Federal tax refund
                          checks. The man used a stolen name and SSN to open a
       bank account which was used to deposit some of the refund checks. He was
       incarcerated and ordered to pay the IRS $41,405.




page 24   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Issue 2: Integrity of the Earnings Reporting
Process
The integrity of SSA’s process for posting workers’ earnings is critical
to ensuring that eligible individuals receive the full retirement, survivor
and/or disability benefits due them. Earnings information reported to SSA
by employers and self-employed individuals impacts the level of benefits
provided to individuals under both the Old-Age, Survivors and Disability
Insurance (OASDI) and SSI programs. If earnings information is reported
incorrectly or not reported at all, SSA cannot ensure all eligible individuals
are receiving the correct payment amounts. In addition, SSA’s disability
programs under OASDI and SSI depend on this earnings information to
determine (1) whether an individual is eligible for benefits and (2) the size
of the disability payment. Finally, SSA spends scarce resources trying to
correct the earnings data when incorrect information is reported.

The Earnings Suspense File (ESF) is the Agency’s record of annual wage
reports for which wage earners’ names and SSNs fail to match SSA’s
records. Between 1937 and 2000, the ESF grew to represent about
$374 billion in wages, reflecting approximately 236 million wage items
with an invalid name and SSN combination. As of July 2002, SSA posted
9.6 million wage items to the ESF for tax year (TY) 2000, representing about
$49 billion in wages. Although SSA is able to post most of the reported
earnings to an individual’s account, those that cannot be matched continue
to accumulate in the ESF.

Another concern is the additional administrative cost and time required
to correct invalid earnings information. Resolving suspended items
unnecessarily consumes Agency resources. For example, to resolve TY 2001
invalid wage items, some of SSA’s estimated expenditures included:

  • $5.4 million in TY 2001 to send notices to every individual whose name
    and SSN do not match SSA’s records.

  • $600,000 in TY 2001 to send 944,000 notices to all employers who had
    an item posted to the ESF.

  • An average of $9.00 for each call (estimated to be 100,000 for the
    TY 2001 letters) to SSA’s national 800-number generated by the
    notices.

  • Over $200,000 for system maintenance and cyclical changes.

While SSA has limited control over the factors that cause the volume
of erroneous wage reports submitted each year, the Agency still has
some ability to improve the process. SSA can improve wage reporting
by educating employers on reporting criteria, identifying and resolving



                                                    Management Issues •       page 25
Semiannual Report to Congress                       October 1, 2002 — March 31, 2003



       employer reporting problems, and encouraging greater use of the Agency’s
       SSN verification programs. For example, a September 2001 OIG report
       noted how one employer could have prevented $10.2 million in wages from
       going into the ESF if the employer had used SSA’s Enumeration Verification
       Service (EVS).

       SSA can take additional steps, including establishing tighter wage
       reporting accuracy thresholds to identify problems with wage reports and
       attempting corrections with the employer before the wages go into the ESF.
       Furthermore, implementing a GPRA measure monitoring the ESF’s growth
       may, over time, indicate to management whether the problem is alleviated
       by ongoing Agency efforts.

       SSA also needs to improve coordination with other Federal agencies with
       separate yet related mandates. For example, SSA’s ability to improve wage
       reporting is related to the failure of IRS to sanction employers for submitting
       invalid wage data, as well as to employer understanding of complicated
       DHS procedures for verification of eligible employees.

       Ensuring the integrity of the earnings in the Master Earnings File (MEF),
       the repository of earnings related to specific individual records, is also
       a critical audit area. In an August 2002 report, we noted SSA did not
       have an effective process for resolving earnings items suspended due to
       an individual’s presumed death. In the report we estimated that 6,809
       suspended wage items related to individuals who were alive on SSA’s
       records, but these earnings had not been reinstated. SSA addressed this
       concern by establishing an annual process to reinstate earnings items
       where the indication of death has been removed.

       Furthermore, in a September 2002 audit we reported SSA did not have
       adequate controls over its EVS program to detect deceased individuals and
       individuals in nonwork status, notify employers, and alert Agency staff for
       necessary action. As a result, employers were not always informed about
       their workforce and potential wage reporting problems. SSA has agreed
       to modify the EVS program to detect and report on such instances in the
       future.

       SSA has developed other processes that inform individuals about their
       earnings while validating the earnings data in the MEF. SSA now mails
       Social Security statements to individuals who have earnings and are age
       25 or older. In FY 2002, SSA mailed about 138 million statements. If an
       individual whose earnings are currently in the suspense file contacts SSA
       about missing earnings, these amounts are either reinstated from the ESF
       to the MEF or added as new earnings to the MEF. This process can improve
       the integrity of SSA’s earnings data.




page 26   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



We have recommended that SSA:

  • Seek legislative authority to provide SSA the tools to require chronic
    problem employers to use EVS.

  • Continue to pursue and/or expand on viable options to the current
    SSN verification procedures to broaden employer participation in SSA’s
    name and SSN verification projects.

  • Strengthen efforts with DHS and IRS to identify problem employers,
    given that some large employers have as much as two-thirds of their
    wage reports going into suspense.

  • Pursue with IRS penalties on chronic problem employers and, should
    the IRS fail to impose such penalties, seek SSA sanctioning authority.

  • Modify EVS to detect SSNs for deceased individuals and individuals in
    nonwork status, while providing appropriate notification to employers
    and SSA staff.

  • Establish performance goals and measures in accordance with GPRA
    that track SSA’s success in reducing the growth and size of the ESF.

During this reporting period, we conducted the following reviews in this
area.

Congressional Response Report: Status of SSA’s Earnings
Suspense File

In response to a September 5, 2002 request from E. Clay Shaw, Jr.,
Chairman of the Subcommittee on Social Security, we reviewed the status
of the ESF in terms of wages and items and determined the number of items
reinstated to earners’ accounts from the ESF.

Our report contains specific information on: wages and items remaining in
the ESF since Tax Year 1937, SSA’s edit processes designed to remove wages
and items from the ESF, the volume of wages and items removed from the
ESF, and SSA’s attempts to reduce the size and growth of the ESF.

We commended SSA for its efforts to reduce the size and growth of the
ESF. We also noted that the ESF continues to grow in both real and relative
terms, and that it will continue to need management’s attention. Finally,
the report states that while SSA cannot control all of the factors related
to the ESF’s growth, we believe our earlier recommendations are still valid
and would assist SSA in resolving some of the issues related to accurately
posting earnings.




                                                  Management Issues •       page 27
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       SSA’s Processing of Internal Revenue Service Overstated Wage
       Referrals

       Our objective was to evaluate SSA’s processing of IRS overstated wage
       referrals.

       Each year a number of taxpayers contact IRS to dispute wages posted to
       their earnings record as well as the associated taxes. If IRS concurs with
       the taxpayer, IRS sends a referral to SSA stating the earnings reported do
       not belong to the person holding that SSN and notifies SSA to correct its
       earnings records. IRS has sent referrals to SSA for over 10 years, and SSA
       has an estimated backlog of 80,000 unprocessed referrals.

       We found that SSA has not been processing the IRS referrals and, as a
       result, the Agency has missed an opportunity to improve the integrity
       of wage earner’s records, reduce potential overpayments, and identify
       SSN misuse within the economy. We estimate the unprocessed referrals
       have caused the MEF to be overstated by $438 million. In addition, these
       overstated wages, if left uncorrected, could lead to improper payments
       to future retired beneficiaries, totaling an estimated $41 million over the
       beneficiaries’ lifetimes.

       We believe SSA can reduce the overall workload related to unprocessed
       referrals by creating a database to highlight trends and prioritize cases
       based on the likelihood of improper benefit payments and/or identity theft.
       SSA should renegotiate its referral procedures with IRS if the current
       process is not providing SSA the necessary information in the right format
       to resolve the underlying issues.

       To improve the integrity of the MEF, prevent potential overpayments,
       and detect instances of identity theft, we recommended that SSA begin
       processing the backlogged IRS referrals, starting with the referrals that are
       most likely to:

          • Reduce overpayments, such as those related to individuals closer to
            retirement age.

          • Minimize identity theft, such as those with higher disputed wages over
            multiple tax years

       We also recommended that SSA work with IRS to establish and implement
       procedures to process the referrals, which could include:

          • IRS obtaining sufficient information from the numberholder to allow
            SSA to remove the wages without additional development.

          • SSA requesting that future referrals be provided electronically to
            minimize handling at SSA.




page 28   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



  • IRS requesting that the numberholder contact SSA to correct the
    wages.

  • IRS requesting that the employer send a corrected wage report to
    SSA.

SSA generally agreed with our recommendations. Specifically, SSA agreed
to:

  • Develop a workplan to begin processing the workload while considering
    budget and resource constraints.

  • Form a workgroup with IRS to revisit the overall process to implement
    processing improvements and/or automate this workload.

Congressional Response Report: SSA Benefits Related to
Unauthorized Work

In response to an October 10, 2002 request from E. Clay Shaw, Jr., Chairman
of the Subcommittee on Social Security, House Ways and Means Committee,
we reviewed the statutory and regulatory framework that allows noncitizens
to receive Social Security benefits based on unauthorized work and defined
the characteristics of specific instances where such unauthorized work later
led to Social Security benefits.

We concluded that under the current statutory and regulatory framework,
the Social Security Act often does not prohibit noncitizens from claiming
entitlement to Social Security benefits based on earnings derived from
covered employment in the United States, even if the individuals were
illegal residents, or legal residents who had engaged in unauthorized
employment. As a result, while SSA is adhering to the Social Security Act
in terms of paying benefits to such persons, these statutory requirements
are benefiting noncitizens whose work activities are not consistent with
U.S. immigration laws. In some specific cases, this practice may also be
inconsistent with other provisions, such as certain penalties in section 208
of the Social Security Act and the Identity Theft and Assumption Deterrence
Act.

With respect to nonwork SSNs, we made recommendations in earlier audits
to discourage illegal employment. In this earlier work, we recommended
that SSA:

  • Propose legislation to prohibit the crediting of nonwork earnings and
    related quarters of coverage for purposes of benefit entitlement.

  • Work with INS to resolve data compatibility problems between SSA and
    the INS to improve the information in both agencies’ databases.




                                                   Management Issues •      page 29
Semiannual Report to Congress                    October 1, 2002 — March 31, 2003



       With respect to noncitizen work without an SSN, SSA may need to consider
       these potential wage reinstatements in future workload plans. In addition,
       SSA needs to consider how its current policy to reinstate wages related to
       unauthorized work by noncitizens impacts:

          • Τhe growth of the ESF.

          • Τhe consistency with immigration and SSN misuse legislation.

          • Conformance with ongoing Government efforts to identify and deter
            illegal immigration.




page 30   •   Management Issues
October 1, 2002 — March 31, 2003                     SSA Office of the Inspector General



Issue 3: Management of the Disability Process
SSA administers two programs that provide benefits based on disability:
Disability Insurance (DI) and SSI. Most disability claims are initially
processed through a network of Social Security FOs and State DDSs.
SSA representatives in FOs are responsible for obtaining applications for
disability benefits and verifying nonmedical eligibility requirements, which
may include age, employment, marital status, or Social Security coverage
information. The FO sends the case to a DDS for evaluation of disability.

The DDSs, which SSA fully funds, are State agencies responsible for
developing medical evidence and rendering the initial determination
on whether the claimant is disabled or blind. After the DDS makes the
disability determination, it returns the case to the FO for appropriate action
depending on whether the claim is allowed or denied. In FY 2002, FOs
processed 2,376,918 initial disability claims, and the average processing
time was 104 days.

Once an individual begins receiving disability benefits under either the DI
or SSI program, the Agency’s concern is whether that person continues to
meet eligibility criteria. Disability benefits will not continue if:

  • Legislation or Federal regulations rescind a prior disabling condition
    from allowing a person to qualify for benefits.

  • A child turns 18 years old and is no longer considered disabled under
    adult criteria.

  • An individual returns to work and has income over SSA’s allowable
    amount.

  • A CDR shows the individual is no longer disabled.

SSA’s Office of Hearings and Appeals (OHA) is responsible for holding
hearings and issuing decisions at two distinct stages in SSA’s appeals
process. Administrative law judges hold hearings and issue decisions in
hearing offices nationwide. OHA’s field structure consists of 10 regional
offices and 138 hearing offices. In FY 2002, hearing offices processed
532,106 cases, and the average processing time was 336 days.

The Appeals Council is the final level of administrative review for claims filed
under SSA’s disability programs. The Appeals Council reviews administrative
law judge decisions and dismissals upon the claimant’s timely request for
review. In FY 2002, the Appeals Council processed 115,467 cases, and the
average processing time was 408 days.

Over the last several years, SSA has tested several improvements to the
disability claims process as a result of concerns about the timeliness and



                                                     Management Issues •       page 31
Semiannual Report to Congress                       October 1, 2002 — March 31, 2003



       quality of service. These disability improvement initiatives include all levels
       of eligibility determination—beginning with State DDSs and going through
       the hearings and appeals processes.

       To date, these initiatives have not resulted in significant improvements in the
       disability claims process, and in January 2003, GAO added the modernizing
       of Federal disability programs, including SSA’s, to its 2003 high-risk list.
       The Commissioner recently announced several decisions on the future of
       SSA’s Disability Process. The Commissioner’s decisions included: pursuing
       the expansion of single decisionmaker authority nationwide, ending the
       requirements for the claimant conference in sites testing the prototype
       disability process, evaluating the elimination of the reconsideration level
       of the claims process nationwide, making additional improvements to the
       hearings process, and implementing an Electronic Disability System by
       2004.

       SSA reports that its short-term initiatives have improved the hearings
       process. The short-term initiatives include expedited techniques for the
       review of cases and technology enhancements designed to improve the
       timeliness of decisions. Furthermore, SSA expects the electronic disability
       system to provide OHA a more efficient and effective case processing
       system when implemented.

       In this reporting period, we conducted the following review in this area.

       DDSs’ Use of Volume Consultative Examination Providers

       Our objectives were to determine why only a small number of State DDSs
       receive discounts on consultative examinations purchased from volume
       medical providers (VMP), and whether the potential exists to increase these
       discounts from VMPs.

       Each DDS is responsible for obtaining adequate medical evidence to support
       the disability decision. In so doing, a DDS may purchase exams from medical
       providers to supplement the medical records obtained from a claimant’s
       treatment sources. Federal regulations allow each DDS to establish its rate
       of payment for exams. However, a DDS’s rate of payment for an exam
       may not exceed the highest rate paid by the Federal Government or other
       agencies in the State for the same or similar types of service.

       During the review, we determined that 38 of the 54 DDSs purchased
       exams from VMPs during FY 2001. The other 16 DDSs stated that small
       exam workloads did not attract VMPs. However, only 5 of the 38 DDSs
       purchasing exams from VMPs received such discounts. The remaining
       DDSs that purchased exams from VMPs had various reasons why they
       were not receiving a discount. The primary reason was that the rate for
       exams was lower than Medicare rates. We confirmed that four of the five


page 32   •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



DDSs receiving discounts from VMPs in FY 2001 had exam rates lower than
Medicare’s rates.

We believe there is potential for the Agency to increase such discounts at
some DDSs, mainly those that have a relationship with VMPs. It would be
helpful for SSA to assist the DDSs in negotiating the discounts with the
VMPs, starting with those DDSs that would be most beneficial in lowering
the medical costs for the Agency. We also identified best practices that may
improve the DDSs ability to procure discounts from VMPs.

Therefore, we recommended that SSA:

  • Identify the methods and processes used by the New York, Florida, and
    Oregon DDSs to obtain discounts from multiple VMPs and disseminate
    the information to other DDSs.

  • Provide guidance to the DDSs for recruiting VMPs and negotiating
    discounted exam fees.

SSA agreed with our recommendations.




                                                   Management Issues •       page 33
Semiannual Report to Congress                        October 1, 2002 — March 31, 2003



       Issue 4: Fraud Risk
       Fraud is an inherent risk in all of SSA’s core business processes:
       enumeration, earnings, claims, and post-entitlement. All of these processes
       include vulnerabilities that provide individuals the opportunity to defraud
       third parties, SSA, or its beneficiaries and recipients. Our focus on fraud risk
       is based on program eligibility factors individuals misrepresent to attain or
       maintain eligibility.

       Examples of the eligibility factors under the OASDI program include family
       relationships (for dependents and survivors), school attendance (for children
       age 18 and older), and child in-care (for surviving spouses under age 60).
       Because the SSI program is needs-based, it includes eligibility factors that
       tend to be more difficult for SSA to verify and monitor. These include income,
       resources, living arrangements, U.S. residency, and deemed income.

       Key risk factors common to both OASDI and SSI programs are the
       reporting of beneficiary and recipient deaths and the monitoring of medical
       improvements for disabled individuals. SSA has taken an active role in
       addressing the integrity of the OASDI and SSI programs through various
       fraud initiatives. Key projects under this initiative include Prisoners, Fugitive
       Felons, and Electronic Death Registration.

       SSA’s difficulty in monitoring eligibility factors for SSI recipients was one of
       the key reasons GAO put the SSI program on its list of “high-risk” Federal
       programs in 1997. However, GAO announced in January 2003 that SSA’s
       progress in addressing SSI overpayment issues warranted removal of high-
       risk designation.

       Prior audits have identified weaknesses in SSA’s detection of prisoners who
       improperly received Social Security benefits. As a result of the expansion
       of data agreements with correctional facilities, SSA’s Actuary estimated the
       total 7-year savings through 2001 at $3.5 billion.

       Our audits have disclosed the need for SSA to improve its capability to avoid
       improper payments to fugitive felons. One audit found that, without effective
       matching of State fugitive files, SSA will pay fugitives at least $30 million
       in SSI payments per year. A second audit recommended that SSA propose
       legislation to prohibit paying OASDI benefits to fugitives. (Currently, the
       Social Security Act prohibits only paying SSI benefits to fugitives.)

       Another significant fraud risk is the detection of unreported beneficiary and
       recipient deaths. SSA relies on computer matches between its Death Alert,
       Control, and Update System (DACUS) to identify unreported deaths from
       Federal and State databases. One audit disclosed that about $31 million
       was paid to 881 deceased individuals because the DACUS did not properly




page 34   •   Management Issues
October 1, 2002 — March 31, 2003                     SSA Office of the Inspector General



match their records. Another audit identified 26 individuals who may have
fraudulently negotiated $429,779 in benefits to deceased individuals.

SSA has taken steps to combat fraud by offering its employees work credits
for fraud referrals. While we applaud this action, we believe SSA needs to
go further. For example, to fulfill its role as a steward of public dollars, it
is imperative that SSA define the universe or magnitude of fraud as do the
insurance, retail, and banking industries, which have baselines to estimate
potential dollars lost to fraud.

Fraud risk is a major focus of our office. The following provides an overview
of some of the work we do to combat fraud in SSA’s operations.


Payments Made to Deceased Individuals
In conjunction with SSA, we have taken aggressive action to stop erroneous
payments to deceased individuals. This includes front-end detection of
these improper payments, controls to prevent such payments, and detailed
investigations to locate wrongdoers when the system breaks down.
We believe that paying the right person the right amount of benefits is
paramount. Payments made to deceased individuals undermine public trust
and confidence in SSA’s programs. In this area, we are currently conducting
a national operation, as well as other investigative and audit activities as
described below.

BIC “D” Project

Our BIC “D” Project is an operation of national scope that focuses on
deceased auxiliary Social Security beneficiaries who are in current payment
status, despite having their date of death posted in SSA records. The
project’s name derives from Beneficiary Identification Code “D” for widows
and widowers.

The BIC “D” operation identifies subjects who are considered likely to be
deceased and in current pay status based on a records match of SSA’s
payment records against its files. Our investigators work with SSA FOs to
verify these deaths, take administrative action, and open investigations as
appropriate. If the beneficiary is alive, our investigators notify the local SSA
FO that the record is in error.

We initiated Phase II of this project in February 2003 and accepted 980
referrals for investigation in which beneficiaries were receiving OASDI
benefits despite having a date of death on their records. As a result, OI
opened 159 BIC “D” cases.




                                                     Management Issues •       page 35
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       Since the project’s inception in FY 2001, we have identified $26,274,913
       in fraud losses. The project has resulted in $52,600,927 in scheduled
       recoveries and projected savings.

       Our BIC “D” Project has resulted in recouping significant amounts of
       wrongly paid benefits, through a number of investigative cases such as the
       following.

                          Our Philadelphia Field Division investigated a man who
                          received and converted for his own use SSA payments
                          sent to his deceased mother from September 1974 to
                          April 2001. He was incarcerated and ordered to pay
                          $153,484 in restitution to SSA.

                          The Chicago Field Division investigated a case in which
                          a woman who died in 1983 was paid benefits as recently
                          as 2002. Our investigation found that her daughter was
                          the only other person listed on the bank account to
                          which the benefits were being deposited. The daughter
                          began withdrawing and spending the funds in 1985 and
       continued until the benefits were stopped in 2002. She was incarcerated
       and ordered to pay full restitution in the amount of $101,805.

                         Our St. Louis Field Division investigated the continued
                         payment of benefits to a man’s mother after her 1997
                         death. From February 1997 to June 2001, SSA paid
                         the benefits by direct deposit into the mother’s bank
                         account. Our investigation revealed that her son, a
                         prominent Iowa attorney, continued to access his
       mother’s account following her death and converted more than $72,000 to
       his own use. Once his scheme was revealed, he admitted his wrongdoing,
       and later surrendered his law license to the Iowa State Bar Association. He
       was incarcerated and ordered to pay full restitution to SSA.

       Medicare Non-Usage

       The Medicare Non-Usage Project is an SSA anti-fraud initiative that is also
       designed to identify unreported deaths. SSA receives data from the Center
       for Medicare and Medicaid Services identifying SSA beneficiaries who are
       96 years old or older and have not used Medicare within 3 years. SSA FO
       employees try to contact the identified beneficiaries. If SSA determines that
       the case is suspicious, the FO refers the case to us for investigation.

       During this reporting period, OI opened 93 Medicare Non-Usage cases. This
       project has identified $5,901,567 in fraud losses and resulted in savings,
       restitution, and recoveries of $6,127,404 since its inception.



page 36   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



The following cases highlight our efforts under this project:

                    A Dallas Field Division investigation revealed that an SSI
                    recipient died in 1981 but her death was not reported
                    to SSA. She had lived with a woman who told both SSA
                    and our agents that she was visiting relatives out of
                    town. The woman ultimately admitted she had cashed
                    the checks at a grocery store and bank over a 20-
year period after the recipient’s death. She received probation with home
confinement and was ordered to pay $89,531 in restitution to SSA.

                    Our St. Louis Field Division investigated when the local
                    SSA office was unable to contact either an elderly
                    beneficiary or the niece who was her representative
                    payee. Our agents located the representative payee,
                    who admitted her aunt had died in 1988. The niece had
                    continued cashing SSA checks for her own personal use
after her aunt’s death. She received probation and was ordered to pay
$99,560 in restitution.


Operation “Vulture Sweep”
The World Trade Center (WTC) Fraud Task Force investigation, called “Vulture
Sweep,” investigates people who falsely filed for death certificates, claiming
that members of their family died in the September 11, 2001 attacks. Our
New York Field Division has investigated the following cases:

                   A man received $17,575 from the American Red Cross,
                   based upon his false statement that his wife died in
                   the WTC. Our investigation established that his wife
                   was alive. Our agents and the New York City Police
                   Department arrested him, and he was charged under
                   New York State Law and incarcerated.

                 Another New York man fraudulently claimed that his
                 former wife had perished in the WTC attack, and applied
                 for SSA survivor benefits for their two children and for the
                 proceeds of her life insurance policy. Our investigation
                 revealed that his former wife was living in Holland.
                 Following the defendant’s arrest, he refunded $5,739 in
SSA payments received on behalf of his children, and was incarcerated.

                   A woman attempting to obtain emergency relief funds
                   stated in a claim that her husband died in the WTC
                   disaster. Our investigation found that the husband was
                   in fact alive. The woman was incarcerated and ordered
                   to pay $10,000 in restitution to Safe Horizon.


                                                    Management Issues •       page 37
Semiannual Report to Congress                       October 1, 2002 — March 31, 2003



       Other SSA Program Fraud Cases
       Some unscrupulous people view SSA’s disability and retirement programs
       as money waiting to be taken. Although SSA employees are trained in fraud
       prevention and are required to comply with procedures designed to prevent
       fraud, their performance is measured primarily in terms of customer service.
       This is an issue the Agency will continue to deal with as it recognizes
       customers expect service to be the top priority. Our experience has shown
       that some employees instinctively know when they are presented with false
       documents. However, employees may be reluctant to question individuals
       because of fear of violence or retaliation by that person.

       We have had numerous investigative successes during this reporting period,
       including:

                          Our Chicago Field Division investigated a couple who
                          feigned and exaggerated symptoms of mental and
                          physical illness, and received $420,000 in disability and
                          other benefits. They received Social Security benefits
                          for 2 fictitious children they claimed had been born in a
                          foreign country. The wife also used an alias SSN to get
                          a drivers license, to apply for financial aid, and to get a
       job while attending Chicago State University, and was awarded $20,000 in
       Government education funds to which she was not entitled. The husband
       was incarcerated and ordered to repay $462,097 to SSA. The wife’s
       sentence is pending.

                          Disability fraud was the lever that turned a joint
                          investigation into a long sentence for a Syracuse drug
                          dealer. The IRS and Syracuse police asked our New York
                          Field Division for help investigating a man who was part
                          of a ring that distributed cocaine and crack. He had been
                          receiving disability benefits from Social Security since
       1994, concealing assets of over a million dollars that made him ineligible
       for SSA benefits. He was incarcerated, ordered to pay $92,278 restitution to
       SSA, and required to forfeit over $600,000, 2 sport utility vehicles, firearms,
       and a house worth $250,000.

                          Our Philadelphia Field Division investigated a private
                          citizen’s report that a disability beneficiary had a second
                          identity and SSN. The suspect, a West Virginia man,
                          worked under an assumed identity for 13 years, during
                          which he received SSA disability benefits under his
                          true identity. He was incarcerated and ordered to pay
       $110,839 restitution to SSA.




page 38   •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



                     Our St. Louis Field Division began what became a
                     murder investigation in conjunction with local police in
                     an effort to find women who were being sent checks for
                     disability benefits. The checks were being cashed, but
                     the women’s whereabouts were unknown. A search of a
                     Kansas man’s property for an unrelated offense turned
up 2 of the women’s bodies in barrels. Another 3 were found at a Missouri
storage facility he had rented. Our investigation revealed that the man had
promised women secretarial jobs in a scheme to defraud SSA so he could
collect over $189,000 in undeserved disability benefits. The suspect had
obtained the checks by filing fraudulent medical reports in the victims’
names. He was convicted of murdering 3 individuals, including a mother
and her disabled daughter, as well as kidnapping and theft, and sentenced
to death.


SSA Employee Fraud
It only takes a few corrupt employees to compromise the integrity of
the Social Security system and undermine the public’s confidence in SSA
programs. Although the vast majority of SSA’s over 64,000 employees
are trustworthy and dedicated, OIG remains vigilant. Due to the potential
for widespread abuse, the detection of employee fraud is an investigative
priority, although it comprises the fewest number of allegations and cases.

During this reporting period, we opened 64 new employee investigations,
closed 52 employee investigations, arrested 12 employees, secured
indictments of 9 employees, and participated in 6 judicial actions that
resulted in the conviction of SSA employees.

SSA Employee Fraud Cases

                   Our Atlanta Field Division investigated 2 SSA employees
                   and 2 other people in Florida who conspired to issue
                   at least 19 fraudulent SSNs to illegal aliens. Both SSA
                   employees lost their jobs and were incarcerated, and
                   each was ordered to pay a special assessment. The
                   remaining co-defendants are awaiting sentencing.

                  Our Los Angeles Field Division investigated an SSA
                  employee who had accessed SSA’s computer system
                  to conceal a former SSI recipient’s incarceration and
                  generate fraudulent SSI payments of $5,047, out of
                  which he directed the recipient to pay him $4,600 in
                  cash. The employee was removed from his position,
given 3 years supervised probation and 400 hours of community service.
He was also ordered to pay $4,947 restitution to SSA.


                                                   Management Issues •       page 39
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



                           Our Philadelphia Field Division investigated an SSA
                           employee who provided a co-conspirator confidential
                           SSA identifying information to be used in account
                           takeovers and credit card fraud. The investigation was
                           part of Operation Pinch, a joint investigation our agents
       conducted with the FBI. The employee lost his job and received 3 years’
       probation. His colleague was fined $2,000 and incarcerated for 16 months.

       In this reporting period, we also conducted the following reviews:

       Congressional Response Report: SSA’s Efforts to Process Death
       Reports and Improve its Death Master File

       Senator Dianne Feinstein and Congressman Luis Gutierrez asked us to
       review SSA’s processing of death reports and progress in implementing
       prior recommendations to improve the Death Master File (DMF).

       Our report contained information on:

          • The number and source of death reports processed by SSA.

          • The timeliness of death information received by SSA.

          • An overview of the death termination process.

          • The number of fraud cases involving improper payments to deceased
            individuals.

          • The status of recommendations from our September 2002 audit
            entitled, “Effectiveness of SSA’s Death Termination Process.”

          • Information on prior recommendations made to improve SSA’s DMF
            and the corrective actions SSA has taken.

       This report was released for informational purposes and did not contain any
       new recommendations. We noted that SSA plans to implement a nationwide
       system of electronic death registration with the eventual goal of receiving
       death information from States both:

          • Within 5 days of death.

          • Within 24 hours of receipt in the State Bureau of Vital Statistics.

       We further noted that although the Agency has initiated actions to improve
       the accuracy of the information in the DMF, we believe continued efforts are
       needed to ensure its accuracy and reliability. We cite that the accuracy of
       the DMF is compromised in two ways:

          • It does not contain information on every deceased SSN holder.

          • The DMF contains information on individuals who are not deceased.



page 40   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



We also said the DMF’s deficiencies need correcting to increase reliability,
improving its usefulness to other Government agencies and the public.

Analysis of Multiple, Unrelated Title II Payments to the Same Bank
Account

On August 17, 1988, when SSA and our office were still part of HHS,
we issued an audit report, “Identifying Unauthorized Multiple Payments
to the Same Person at the Same Address.” In that report, we suggested
improvement to SSA’s Master File Duplicate Detection Operation (MAFDUP)
to identify multiple payments going to the same mailing address. MAFDUP
serves as a control to help prevent fraud in SSA’s programs.

Our objective for the current review was to develop a process SSA could
use to identify fraudulent title II benefit payments. We also evaluated issues
that arose during the audit that related to nursing homes directly receiving
benefit payments and lack of cross-referencing of spousal accounts.

The results of the review revealed that testing of multiple payments to
the same bank account did not reveal any instances of fraudulent benefit
payments. However, we identified two issues during the audit that we
believed warranted SSA’s immediate attention. First, SSA needs to be more
proactive in identifying beneficiaries in nursing homes that may not be
capable of managing their funds. Second, SSA needs to implement policies
and procedures for identifying dually entitled beneficiaries and ensuring
beneficiaries receive all the benefits to which they are entitled.

We recommended that SSA:

  • Implement policies and procedures necessary for detecting nursing
    homes receiving beneficiary funds without being the representative
    payee. Afterward, SSA should make appropriate capability
    determinations so that representative payees can be appointed (as
    needed) and held accountable.

  • Perform official capability determinations for all of the beneficiaries in
    the nursing homes we visited.

  • Implement policies and procedures for identifying spousal beneficiaries
    who are not cross-referenced, determine whether they are due
    additional benefits and notify all such beneficiaries of the option to
    elect higher benefits.

  • Amend the Program Operations Manual System to make cross-
    referencing of SSNs a required entry for married beneficiaries.

SSA agreed with these recommendations and described its plans to
implement them.



                                                    Management Issues •       page 41
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       Issue 5: Improper Payments
       SSA is responsible for issuing benefit payments under the OASDI and SSI
       programs. In FY 2002, SSA issued $483 billion in benefit payments to about
       53 million beneficiaries. Considering the volume and amount of payments
       SSA makes each month, even the slightest error in the overall process can
       result in millions of dollars in overpayments or underpayments.

       Improper payments are defined as payments that should not have been
       made or were made for incorrect amounts. Examples of improper payments
       include inadvertent errors, payments for unsupported or inadequately
       supported claims, payments for services not rendered, or payments
       to ineligible beneficiaries. The risk of improper payments increases in
       programs with (1) a significant volume of transactions, (2) complex criteria
       for computing payments, and/or (3) an overemphasis on expediting
       payments. Since SSA is responsible for issuing timely benefit payments for
       complex entitlement programs to 50 million individuals, SSA is at-risk of
       making significant improper payments.

       The President and Congress expressed interest in measuring the universe
       of improper payments within the Government. In August 2001, OMB
       published the President’s Management Agenda for FY 2002, which included
       a Governmentwide initiative for improving financial performance. Each year,
       SSA reports payment accuracy rates for its programs as well as the amount
       of actual overpayments identified. For FY 2001, SSA’s Stewardship Report
       showed that the OASDI accuracy rate was 99.8 percent.

       While SSA reports a payment accuracy rate for each of its programs, its
       payment accuracy rates do not directly correspond to the overpayments
       reported in SSA’s financial statements. For each program, SSA’s payment
       accuracy rate is based on a detailed analysis of a sample of cases. While
       this sample case review is more extensive than SSA’s normal processes, the
       payment accuracy rate is higher than it would be if all types of overpayments
       were considered in calculating the rate.

       Actual overpayments are higher than the payment accuracy rate because
       SSA does not include all types of improper payments, such as the medical
       factors of eligibility, when calculating its payment accuracy rate. Further,
       SSA does not count all types of overpayments identified during its case
       review as “errors” when calculating the payment accuracy rate.

       As a result, SSA’s payment accuracy rates are not based on the total amount
       of improper payments that occur in its programs and, in fact, overstate
       the Agency’s accuracy in making payments. The lack of correspondence
       between SSA’s accuracy rates and reported overpayments is demonstrated
       by the OASDI payment accuracy rate for FY 2001. Using the payment
       accuracy rate for the OASDI program in FY 2001, one would have expected


page 42   •   Management Issues
October 1, 2002 — March 31, 2003                                        SSA Office of the Inspector General



$857 million in overpayments. However, SSA reported actual OASDI
overpayments of $1.6 billion in its FY 2001 financial statements.


                                      Improper Payments

                                                FY 2001          FY 2001 Actual FY 2002 Actual
                            FY 2001            Payment           Overpayments Overpayments
       Program           Expenditures        Accuracy Rate
                          (in billions)        (percent)          (in billions)1 (in billions)1

    OASDI                        $428.3            99.8                $1.59                $1.61


    SSI                            $27.7            92.8                $1.95                $2.05


    Total                         $456.0            N/A                 $3.54                $3.66

1     Represents new programmatic debt detected as reflected in SSA’s financial statements without regard
      to the year in which the payment was made.



Since the SSI program is more complex than the OASDI program—and
relies heavily on beneficiary self-reporting of events that affect program
eligibility—we would expect SSA’s overpayment rate for the SSI program to
be significantly higher than the overpayment rate for the OASDI program.
We compared SSA’s payment accuracy rates to its actual overpayment
amounts for FY 2001 and estimated SSA’s unknown portion of improper
payments to be over $2 billion. While neither SSA nor we have determined
the exact amount of improper payments in SSA’s programs, we are
continuing our efforts to refine such a calculation and believe our $2 billion
estimate is valid.

SSA has undertaken many projects to identify and improve areas where
it could do more to reduce improper payments and/or recover amounts
overpaid. SSA has been working to improve its ability to prevent
overpayments by obtaining beneficiary information from independent
sources sooner and/or using technology more effectively. In this regard,
SSA has initiated new computer matching agreements, obtained online
access to wage and income data, and implemented improvements in its
debt recovery program. Working with SSA, we have made great strides
in reducing benefit payments to prisoners and SSI payments to fugitive
felons, and these efforts continue. However, erroneous payments, including
those to deceased beneficiaries, students, and individuals receiving State
workers compensation (WC) benefits, continue to occur.

For example, SSA has made significant improper payments to disabled
beneficiaries who also receive State WC payments. In general, the Social
Security Act requires that SSA benefits be offset for beneficiaries who
receive State-administered benefits. This reduction in benefits prevents
a disabled worker from receiving more in disability payments than he


                                                                        Management Issues •                 page 43
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       or she earned before becoming disabled. Because SSA does not have
       direct access to State WC databases, it primarily relies on beneficiaries
       to voluntarily report changes in WC benefits. In our 1998 and 1999 audit
       reports, we identified potential total dollar errors amounting to $600 million
       in overpayments and $253 million in underpayments due to various errors
       in benefits involving WC. In response to our reports, SSA performed its
       own studies and estimated that the total past and future errors for two
       subsets of the population involving WC payments could reach $1.3 billion
       in underpayments and overpayments. In an effort to correct these errors,
       SSA began recomputing payments for beneficiaries involving WC payments.
       SSA estimated that this effort has corrected over $811 million in past and
       future payment errors.

       During this reporting period, we conducted the following audit and review:

       Congressional Response Report: Status of Corrective Actions
       Taken in Response to Recommendations in Fiscal Years 1997
       Through 2000 Payment Accuracy Task Force Reports

       During the early 1990s, SSA reported a decline in the accuracy of certain
       SSI benefit payments. To improve the accuracy of SSI and Old-Age and
       Survivors Insurance (OASI) program benefit payments, SSA created the
       Payment Accuracy Task Force (PATF) in 1996. PATF was a cooperative
       effort between SSA and our office. Each year, PATF’s Steering Committee
       designated a “payment error category” for review. From FY 1997 through
       FY 2000, PATF reviewed four payment error categories: OASI earnings
       records, SSI earned income, SSI unearned income, and OASI relationship
       and dependency. Over the 4-year period, PATF reports contained
       47 recommendations and the Agency concurred with all but 4.

       The Subcommittee on Social Security, House Committee on Ways and
       Means, asked us to obtain information on the status of corrective actions
       taken on PATF recommendations. In response, SSA provided updates on
       the status of recommendations, and advised us that current measurement
       instruments did not provide data specific enough to measure whether the
       implementation of the recommendations improved payment accuracy. SSA
       also informed us that, in its view, the narrow focus of the recommendations
       made measuring the impact of implementation difficult to identify and
       isolate. SSA also advised that it did not believe the creation of new
       measurement instruments would be cost-beneficial.

       We also advised the Subcommittee that we could not determine whether
       overall payment accuracy improved after we issued the PATF’s reports. This
       was due, in part, because not enough time had elapsed since the issuance
       of the reports to allow for corrective action on all recommendations, and
       because limited information was available at the time of the review.


page 44   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



OASDI and SSI Payments to Deceased Beneficiaries and Recipients
As part of SSA’s FY 2000 Financial Statement Audit Management Letter,
Part 2, PricewaterhouseCoopers (PwC) conducted integrity matches on death
data, comparing date of death information between the Master Beneficiary
Record (MBR) containing OASDI beneficiaries, the Supplemental Security
Record (SSR) containing SSI recipients, and SSA’s Numident record. The
Numident holds information on all valid SSN applications since 1936. The
integrity matches for FY 2000 identified 706 OASDI beneficiaries and 79 SSI
recipients listed as alive and in current pay status on SSA’s MBR or SSR but
deceased on the Agency’s Numident record.

Our objective was to determine the status of these cases. As part of the
objective, we also determined whether SSA made improper payments to
individuals who were deceased and whether the DMF contained information
on living beneficiaries or recipients.

We found that, as of July 2001, 553 (71.9 percent) of the cases still contained
a discrepancy between the payment status information in the MBR and SSR
when compared with Numident records. We requested that SSA determine
whether the individuals for the 553 cases were alive or deceased. As of
April 30, 2002, the cut-off date for our review, SSA provided information to
us that 426 beneficiaries or recipients were alive, 48 were deceased, and
32 cases remained unresolved. SSA did not provide any information on the
remaining 47 cases.

SSA did not act to correct cases that had been identified as having a date
of death discrepancy between the MBR or SSR and Numident records.
Consequently, the Agency made payments to individuals after their
death. In addition, private information for many living individuals was
inadvertently listed in death records that were made available to the public.
We recommended, and SSA agreed with, the following:

  • Recover the payments made after death identified in the sample.

  • Undertake a data match of the entire population to identify cases
    that need to be corrected and amounts recovered for payments after
    death.

  • Ensure that the 71 live individuals, whose records were still listed in
    Internet death records, are removed from the DMF.

  • Determine the status of individuals in the remaining unresolved cases
    and, if alive, remove them from the DMF and recover payments made
    after death if any.

  • Establish a schedule to conduct routine periodic data integrity matches
    to identify date of death discrepancies for review and correction.



                                                     Management Issues •      page 45
Semiannual Report to Congress                       October 1, 2002 — March 31, 2003



       Issue 6: Critical Infrastructure Protection and
       Systems Security
       The Government has a major responsibility for public health and safety.
       Dramatic and widespread harm would result should its systems be
       compromised. Therefore, it is imperative that the Nation’s critical information
       infrastructure, which is essential to the operations of the economy and
       Government, be protected. These systems include, but are not limited to:

          • Telecommunications

          • Energy

          • Banking and finance

          • Transportation

          • Water systems

          • Facility and personnel security

          • Emergency services, both Federal and private.

       Many of the Nation’s critical infrastructures have historically been physically
       and logically separate systems that had little interdependence. Through
       advances in information technology and improved efficiency, however, these
       infrastructures have become increasingly automated and interconnected.
       These same advances have created new vulnerabilities to equipment
       failures, human error, weather and other natural causes, and physical
       cyber-attacks.

       Addressing these vulnerabilities will require flexible, evolutionary approaches
       that span the public and private sectors, and protect both domestic and
       international security. Presidential Decision Directive (PDD) 63, issued
       in 1998, requires that Federal agencies identify and protect their critical
       infrastructure and assets. The information SSA needs to conduct its mission
       is one of its most valuable assets. The Agency is depending on technology
       to meet the challenges of increasing workloads with fewer resources. A
       physically and technologically secure Agency information infrastructure is a
       fundamental requirement.

       The growth in computer interconnectivity brings a heightened risk of
       disrupting or sabotaging critical operations, reading or copying sensitive
       data, and tampering with critical processes. Those who wish to disrupt or
       sabotage critical operations have more tools than ever.

       SSA’s current information security challenge is to understand and mitigate
       system vulnerabilities. At SSA, this means ensuring its critical information
       infrastructure, such as access to the Internet and the networks, is secure.



page 46   •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



By improving systems security and controls, SSA will be able to use current
and future technology more effectively to fulfill the public’s needs. The
public will not use electronic access to SSA services if they do not believe
those systems are secure.

SSA addresses critical information infrastructure and systems security in a
variety of ways. It created a Critical Infrastructure Protection work group
that continually works toward compliance with PDD-63. The work group
has created several components throughout the Agency to handle systems
security. SSA also routinely sends out security advisories to its employees
and has hired outside contractors to provide expertise in this area.

Our work has identified several areas where SSA needs to ensure the
security of its information. With a variety of challenges on the horizon, SSA
needs to address the following issues:

  • Lack of a comprehensive approach to information security.

  • Continued weaknesses in SSA’s overall information protection control
    structure, as identified by PwC.

  • Internal control weaknesses that provide opportunity for unauthorized
    access to confidential information.

  • Limited review and analysis of system intrusion data.

  • Risks associated with providing service over the Internet.

During this reporting period, we conducted the following reviews involving
critical infrastructure and systems security:

Management Advisory Report: SSA’s Oversight of DDS Systems
Security (Limited Distribution Review)

Our objective was to provide information regarding the SSA oversight of
DDSs’ systems security, including monitoring of logical access controls
and the suitability of its users. We found that there were not sufficient
compensating controls to adequately monitor DDS employee access to SSA
systems in accordance with laws, regulations, and best practices.

SSA generally agreed with our recommendations. SSA is improving its
security policies and monitoring procedures for the DDS environment
through the use of new tools and software. The Agency is working with
the DDSs to ensure that they review and certify the appropriateness of
each DDS employee’s level of systems access. The internal SSA Intrusion
Detection System team continues to develop new ways to detect incidents
and enhance internal control capabilities, including detection and controls
relating to DDS systems access. The Agency is working with the DDSs to
ensure that violations are reported and acted on in a prompt manner.


                                                   Management Issues •       page 47
Semiannual Report to Congress                   October 1, 2002 — March 31, 2003



       Management Advisory Report: Physical Security for SSA’s Laptop
       Computers, Cellular Telephones, and Pagers (Limited Distribution
       Review)

       Our objective was to review SSA’s physical security and controls over its
       laptop computers, cellular telephones and pagers at Headquarters. During
       the review, we did not find any problem with policies regarding cellular
       telephones and pagers. However, we identified opportunities for SSA
       Headquarters employees to improve physical security over laptops.

       To better safeguard SSA Headquarters laptops, we recommended that SSA
       institute several changes. SSA responded that it has already taken steps
       dealing with employee awareness of security policies and agreed with our
       other recommendations. This report is not available for distribution.




page 48   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



Issue 7: Integrity of the Representative Payee
Process
Some individuals cannot manage or direct the management of their
finances because of their youth or mental and/or physical impairments.
While representative payees provide a valuable service for beneficiaries,
SSA must employ appropriate safeguards to ensure they meet their
responsibilities to the beneficiaries they serve.

Congress granted SSA the authority to appoint representative payees
to receive and manage these beneficiaries’ payments. A representative
payee may be an individual or an organization. SSA selects representative
payees for OASDI beneficiaries or SSI recipients when representative
payments would serve the individuals’ interests. Representative payees
are responsible for using benefits in the individual’s best interests. There
are about 5.4 million representative payees who manage benefits for about
7.6 million individuals.

Since FY 2001, we have performed 13 financial-related audits of
representative payees. Our audit results showed that representative payees
did not always meet their responsibilities to the beneficiaries they served.
We identified deficiencies with:

  • Financial management of, and accounting for, benefit receipts and
    disbursements.

  • Vulnerabilities in safeguarding individuals’ payments.

  • Poor monitoring and reporting to SSA of changes in individual
    circumstances.

  • Inappropriate handling of conserved funds.

  • Improper charging of fees.

We continue to identify problems with SSA’s oversight of representative
payees. For example, in March 2001, we alerted SSA to a condition
whereby individuals were serving as representative payees who also had
a representative payee managing their own Social Security benefits. SSA
subsequently identified approximately 3,800 instances where this had
occurred. We also identified 121 individuals whose own benefit payments
were stopped by SSA because they were fugitive felons or parole or
probation violators. However, SSA’s policy does not specifically prohibit
these individuals from serving as representative payees.

In FY 2000, SSA established a Representative Payee Task Force to
perform a comprehensive review of the features and vulnerabilities of the
representative payee program. The Task Force was comprised of three



                                                   Management Issues •      page 49
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       subgroups concentrating on monitoring representative payees, systems
       support for the representative payee program, and bonding and licensing of
       representative payees.

       “Legislation is needed to ensure the integrity of the representative payee
       process at several stages,” IG Huse told the members of the Subcommittee
       on Social Security, House Committee on Ways and Means, at its
       February 27, 2003 hearing. Based on our audits and investigations, the IG
       called for:

          • Addressing the issue of fugitive felons and parole or probation violators
            serving as representative payees.

          • Developing procedures to require representative payees to provide
            accounting forms before releasing a beneficiary’s funds where other
            attempts to obtain accountability have been unsuccessful (including
            making the representative payee come to the FO to receive the
            check).

          • SSA to be authorized to reissue an individual’s misappropriated funds
            and hold the representative payee who misused them liable to repay
            them.

          • Allowing the imposition of CMPs for willful conversion of an individual’s
            funds by a representative payee.

       Examples of our investigative work involving representative payees in this
       reporting period include:

                         Our Seattle Field Division investigated “Payee-R-
                         Us,” an organizational representative payee service
                         in Washington State that handled as many as
                         200 clients, for which it received a $25 fee per client.
                         Its executive director embezzled over $107,000. A
                         homeless beneficiary, for example, was unaware of his
       approximately $15,000 retroactive benefit check that the executive director
       had embezzled for her personal use. The executive director was incarcerated
       and ordered to pay $107,292 in restitution directly to 88 victims.

                         Our Los Angeles Field Division investigated an SSA
                         Honolulu office report that a woman who had been
                         appointed representative payee for her 3 minor children
                         in 1996 had misused their survivors’ benefits. They
                         had been removed from her home and placed in State
                         custody by Hawaii Child Welfare Social Services. She
       was incarcerated and ordered to pay SSA full restitution of $17,631.




page 50   •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



                   Our Philadelphia Field Division investigated the SSA
                   Charlottesville office’s suspicions of a claimant’s
                   whereabouts when numerous attempts to contact her
                   and/or her representative payee—her granddaughter—
                   were unsuccessful. Our investigation revealed that
                   the older woman had died in November 1995, but her
representative payee continued to receive her benefits until February 1999.
The granddaughter was incarcerated and has paid full restitution of $45,379
to SSA.

                    Our Los Angeles Field Division investigated a report
                    that a man who no longer had custody of his 2 minor
                    children might have misused their benefits. Our agents
                    found that the father, appointed as their representative
                    payee in 1991 and 1992, had moved out of his children’s
                    household, leaving the children in their mother’s
custody. From 1994 to 2000, his children’s benefits were deposited directly
into his bank account, and he failed to forward the money to them. The
father had been a transient since 1994, and had minimum contact with his
children since moving out. He was incarcerated and ordered to pay SSA full
restitution of over $28,000.

During this reporting period, we conducted the following audits involving
the representative payee process.

Identifying Representative Payees Who Had Their Own Benefits
Suspended Under the Fugitive Provisions of P.L. 104-193

Our objective was to identify fugitives whose SSI payments were stopped
under P.L. 104-193 but who continued to serve as representative payees
and manage Social Security funds for other beneficiaries.

With the enactment of section 202 of P.L. 104-193 in August 1996, fugitive
felons and parole and probation violators are no longer eligible to receive
SSI payments. To identify SSI recipients who are fugitives, SSA matches
Federal, State, and local law enforcement fugitive data against its SSI
payment records. When SSI recipients are found to be fugitives, SSA
stops their payments and assesses an overpayment for the amount of SSI
payments paid incorrectly.

SSA periodically matches its Prisoner Update Processing System with its
Master Representative Payee File (MRPF) to identify unsuitable representative
payees and protect the most vulnerable individuals from potential abuse
by these representative payees who have become prisoners. However,
SSA does not have a similar program to identify and replace fugitives who
are representative payees. Although SSA staff informed us they perform



                                                   Management Issues •       page 51
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       suitability checks when there is any activity or change in the status of a
       beneficiary who is also a representative payee, SSA does not have a specific
       policy in place that prohibits a fugitive from acting as another individual’s
       representative payee.

       We identified 121 fugitives whose SSI payments were stopped under
       P.L. 104-193, but who continued to serve as representative payees and
       managed over $1.4 million in Social Security funds for 161 individuals.
       We notified SSA of this, and as a result, SSA replaced 15 of the fugitives
       with more suitable representative payees. However, SSA took no action
       to replace 10 other fugitives whose own SSI payments were reinstated
       since their fugitive warrants were resolved after January 2002. SSA did not
       replace the remaining 96 representative payees who remained fugitives as
       of July 2002.

       We believe SSA needs to identify and reassess all fugitives who are acting as
       representative payees. A fugitive for a felony or parole/probation violation
       is not likely to be in the best position to serve as a representative payee.

       We recommended and SSA agreed to:

          • Evaluate the 96 fugitives who continue to serve as representative
            payees to determine whether they are still suitable.

          • Assess the 10 representative payees who are no longer considered
            fugitives to determine whether they are still suitable to serve as
            representative payees.

          • Establish and implement a policy to query databases, such as the
            MRPF, whenever SSI payments are suspended due to a recipient’s
            fugitive status to ensure a suitability review is performed when the
            fugitive is also a representative payee.

       Screening Representative Payees for Fugitive Warrants

       Our objective was to assess the use of fugitive warrant information as a
       screening tool for representative payees.

       We matched records from 10 State fugitive files to SSA’s MRPF and identified
       3,473 fugitive felons and/or parole and probation violators who appeared to
       be representative payees.

       We believe SSA should use fugitive warrant information to screen
       representative payees because a fugitive felon may not be in the best
       position to manage a beneficiary’s funds. Based on our analysis, we
       estimated that approximately 3,145 fugitives served as representative
       payees and managed approximately $81.2 million in Social Security funds.
       Furthermore, we estimated that, if not replaced, current fugitives will



page 52   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



manage approximately $19.6 million in Social Security benefits over the
next year.

We recommended that SSA:

  • Enhance its current representative payee process to include fugitive
    felon data in its suitability determinations for new payee applicants.

  • Periodically validate its representative payee file against fugitive
    warrant data to identify existing representative payees who are
    fugitives and re-evaluate their suitability.

SSA generally agreed with both of our recommendations. However, SSA
stated, “we believe a better and more efficient course is to make these
changes to our current process only after the Congress enacts supportive
legislation.”

Financial-Related Audit of the Harris County Guardianship
Program—an Organizational Representative Payee for SSA

Our objectives were to determine whether the Harris County Guardianship
Program (HCGP):

  • Had effective safeguards over the receipt and disbursement of Social
    Security benefits.

  • Ensured Social Security benefits were used and accounted for in
    accordance with SSA’s policies and procedures.

Our review found that HCGP did not effectively safeguard over $1.2 million
in SSA benefits and account for those benefits in accordance with SSA
policies and procedures. HCGP serves as an organizational representative
payee and provides care to incapacitated and indigent adults as ordered by
Harris County Probate Courts.

Some of the adverse conditions we identified at HCGP might have been
identified and corrected had there been greater oversight by SSA. In
December 1999, SSA’s Houston FO conducted an on-site review at HCGP.
According to FO personnel, the site review was limited to a review of
expenditures for five beneficiaries and was completed in under 1 hour.
The review did not identify any problems. However, FO personnel did
not interview beneficiaries or assess their living conditions. If the FO had
conducted a more thorough review, many of the adverse conditions we
identified would have been discovered.

Generally, HCGP did not meet its overall responsibilities, and needs to make
significant changes and improvements in several areas of its representative
payee program. SSA agreed with our recommendation that it determine
whether HCGP should remain a representative payee, and that if HCGP does


                                                   Management Issues •      page 53
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       so, that SSA increase its oversight of HCGP. We also recommended that SSA
       instruct HCGP to submit guardianship fee assessments to SSA FO for review
       and approval. SSA disagreed, noting that SSA policy does not require a
       representative payee to obtain SSA approval prior to charging guardianship
       fees.

       In addition, we recommended that SSA review the appropriateness of all
       guardianship fees paid since HCGP began serving as representative payee,
       and instruct HCGP to return unapproved and/or excessive fees to affected
       beneficiaries. SSA agreed to conduct a case-by-case review of excessive
       fees once a review of the Texas laws addressing guardianship fees is
       completed.

       We further recommended that SSA:

          • Calculate and collect overpayments resulting from the 13 beneficiaries’
            accounts we identified that contain more than $2,000 in conserved
            funds.

          • Recover $9,096 in benefits from HCGP received for 2 beneficiaries we
            determined were not under its care during our audit.

          • Direct HCGP to return the beneficiaries’ funds misappropriated by two
            former employees to the affected beneficiaries’ accounts.

       SSA agreed with these recommendations. We also recommended and SSA
       agreed to:

          • Provide guidance to HCGP regarding the appropriate level of
            documentation to account for the receipt and disbursement of SSA
            benefits.

          • Instruct HCGP to title its bank account to reflect that the ownership of
            the deposits belongs to SSA beneficiaries.

          • Update the Representative Payee System to reflect the current
            beneficiaries under HCGP’s care.




page 54   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Issue 8: Electronic Government and
Service Delivery
SSA has made a commitment to deliver high-quality, citizen-centered,
service. Providing quality service to the public remains a key management
issue facing SSA, and it recognizes there are a number of significant service
delivery problems that need attention. The complexity of SSA programs is
one such problem.

SSA’s workloads will continue to increase as “baby boomers” reach
retirement age. As the Social Security Advisory Board reported, the result
has been, and will continue to be, uneven service. Over the next 10 years,
the Agency faces some daunting challenges, which it must begin to address
now. SSA needs to balance its delivery and stewardship roles. Some major
challenges the Agency faces on the road ahead are discussed below.

By 2010, workloads will swell to unprecedented volumes. The most
significant factor contributing to this change will be the aging of the baby-
boom generation (those born from 1946 through 1964). Along with an
increased workload, the incredible pace of technological change will have a
profound impact on both the public’s expectations and SSA’s ability to meet
those expectations.

At the same time, SSA is likely to lose a significant number of experienced
employees by 2010. Over 28,000 SSA employees will be eligible to retire,
and another 10,000 are expected to leave the Agency for other reasons.
The loss of these employees will result in a significant loss of institutional
knowledge.

These challenges can be addressed by succession planning, a strong
recruitment effort and effective use of technology. Future service delivery
challenges include providing electronic services over the Internet and
telephone, 24 hours a day, 7 days a week. It will be the norm for business
transactions to be processed electronically at the first point of contact.

The Agency has started to allow the public to file disability claims
electronically over the Internet, and it expects to begin rolling out an
electronic disability program nationally in early 2004. By 2005, SSA will
make 60 percent of its customer-initiated services available electronically
through automated telephone services or the Internet. Throughout this
decade, SSA is also expected to develop an Internet service delivery format
that is fully integrated with its formal telephone business processes. This
will allow its public and business partners to conduct business transactions
with the Agency electronically.

There are always risks involved in conducting electronic commerce, despite
the Agency’s efforts to identify and mitigate them. Privacy and security


                                                    Management Issues •       page 55
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       concerns must remain at the forefront of its planning efforts. Working closely
       with technical experts and privacy advocates, the Agency needs to use a
       variety of tools to protect the public’s information, such as data matching,
       public/private key tools, encryption, digital signatures, and biometrics.
       Secure electronic access to SSA’s facilities, its multi-platform environment,
       and SSA’s records will be a top priority. SSA will need to ensure it complies
       with PDD-63, which deals with critical infrastructure protection, and
       PDD-67, which is concerned with continuity of operations.

       In this reporting period, we conducted the following review in this area.

       Evaluation of the Accelerated Electronic Disability System—Third
       Assessment

       We completed our third assessment in an ongoing evaluation of the
       Accelerated Electronic Disability (AeDib) system (formerly the Electronic
       Disability or eDib system). We provided many of our ideas and concerns
       during the eDib planning process through participation in the AeDib Steering
       Committee.

       As part of the assessment, we provided the following areas for SSA to
       consider.

          • The AeDib’s program management plans and risk management plans.

          • The AeDib cost benefit analysis.

          • Oversight of the AeDib System by its steering committee.

          • The AeDib Project plan.

          • The project scope agreement for enterprise document and imaging
            management architecture for the AeDib Project.

          • The internal controls necessary in scanning hardcopy disability evidence
            at remote sites.

       We believe our advice to SSA on each of these issues will assist the Agency
       in the enhancement of its AeDib systems development process. While the
       Agency was not asked to respond formally to the document, it did implement
       much of our advice given at the AeDib Steering Committee meetings and in
       our third assessment.




page 56   •   Management Issues
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Issue 9: Budget and Performance Integration
Our work to date has demonstrated that SSA is generally committed to the
production and use of reliable performance and financial management data,
but some improvements would further enhance SSA’s ability to produce
accurate management information. This area encompasses SSA’s efforts to
provide timely, useful and reliable data to:

   • Assist internal and external decisionmakers in effectively managing
     Agency programs.

   • Εvaluate performance.

   • Εnsure the validity and reliability of performance, budgeting, and
     financial data.

To effectively meet its mission, manage its programs, and report on its
performance, SSA needs sound performance and financial data. Congress,
other external interested parties, and the general public also want sound
data to monitor and evaluate SSA’s performance. SSA primarily relies on
internally-generated data to manage the information it uses to administer
its programs and report to Congress and the public. The
Governmentwide necessity for good internal data has resulted in
the passage of several laws and regulations to make Government
more accountable. The CFO Act, the Government Management
Reform Act of 1994, and GPRA were passed to create an
environment of greater accountability within Federal agencies.

In accordance with GPRA, SSA has set forth its mission and
strategic goals in 5-year strategic plans, established yearly
targets in its annual performance plans (APP), and reported on
its performance in its annual performance reports. Each year, we conduct
audits to assess the reliability of SSA’s performance data and evaluate the
extent to which SSA’s performance plan describes SSA’s planned and actual
performance meaningfully.

In addition to performance audits, we perform and oversee audits and
reviews of SSA’s financial statements and other financial-related audits
of SSA’s operations. Our work includes an annual audit of SSA’s financial
statements as well as reviews of single audits conducted by State auditors
and public accounting firms. We also conduct administrative cost audits of
State DDSs, which assist SSA with its disability workload. All of this work
helps to assess the validity and reliability of the financial data SSA relies on
to manage its programs and meet its mission.

The integrity of SSA’s programs and those that rely on information from
SSA depend on the reliability and quality of SSA’s data. External data and



                                                    Management Issues •       page 57
Semiannual Report to Congress                         October 1, 2002 — March 31, 2003



       data exchanges are critical to SSA’s programs and are the focus of many
       of our audits. Therefore, it is imperative that SSA’s data be reliable. For
       example, States provide data on WC benefits paid to individuals who may
       also be receiving SSA benefits. The Department of Veterans Affairs and the
       Centers for Medicare and Medicaid Services provide SSA information about
       medical care and deaths that ultimately impact the amount of benefits
       the Agency pays. Also, States use SSA program data to verify their own
       residents’ eligibility for benefits, while employers verify new worker SSNs
       against SSA’s EVS. SSA has become the repository for prisoner information
       it shares with other Federal agencies. Finally, SSA sells some of its death
       data to the private sector.

       Considering the critical role of the underlying data in all of SSA’s performance,
       financial, and data-sharing activities, it is crucial that the Agency have clear
       processes in place to ensure the reliability and integrity of its data.

       In this reporting period, we conducted the following reviews in this area.


       Financial Reviews
       The CFO Act (as amended) requires OIG or an independent external
       auditor, as determined by the IG, to audit SSA’s financial statements in
       accordance with the GAO’s Government Auditing Standards. In addition to
       this requirement, we also conduct other financial-related audits of SSA’s
       operations and review the quality of single audits conducted by State
       auditors and public accounting firms.

       Audit of the Fiscal Years 2002 and 2001 Financial Statements of
       SSA and the Results of OIG’s Review Thereof

       PwC performed SSA’s FY 2002 financial statement audit. SSA met the
       Governmentwide goal to produce audited statements by November 15th.
       On November 14, 2002 PwC issued an unqualified opinion on SSA’s FY 2002
       financial statements. In PwC’s opinion, “. . . the consolidated and combined
       financial statements . . . present fairly, in all material respects, the financial
       position of SSA at September 30, 2002 and 2001 . . . .” However, PwC’s
       audit report identified a reportable condition in SSA’s internal controls.
       PwC reported that SSA needs to further strengthen controls to protect
       its information. SSA generally agreed with this finding and PwC’s related
       recommendation.

       Disability Determination Services Administrative Cost Audits

       Disability determinations under SSA’s DI and SSI programs are performed
       by DDSs according to Federal regulations. There are 54 DDSs located
       in the 50 States, the District of Columbia, Puerto Rico, Guam, and the



page 58   •   Management Issues
October 1, 2002 — March 31, 2003                  SSA Office of the Inspector General



Virgin Islands. In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper
disability determinations, each DDS is authorized to purchase consultative
medical examinations to supplement evidence obtained from the claimants’
physicians or other treating sources. SSA pays the DDS for 100 percent of
allowable expenditures.

We performed administrative cost audits at the Kansas and Puerto Rico
DDSs. The objectives of these audits were to evaluate internal controls
over the accounting and reporting of administrative costs, and to determine
whether costs claimed were allowable and funds were properly drawn.

The audits identified findings related to:

  • Overstated obligations and unliquidated obligations.

  • Incorrect indirect cost allocations.

  • Excessive consultative examination payments.

  • Inappropriate non-SSA work cost charges.

  • Inaccurate other nonpersonnel costs.

  • Internal control weaknesses involving the accounting for and reporting
    of administrative costs.

In total, our reports recommended that SSA recover $5.8 million in
unallowable costs, deobligate over $100,000 in unliquidated obligations,
and improve internal controls in several areas involving administrative
costs.


Performance Reviews

Review of SSA’s FY 2003 Annual Performance Plan

Our objectives were to determine the extent to which SSA’s FY 2003 APP:

  • Responds to prior recommendations made to improve APPs.

  • Contains indicators that provide decisionmakers useful information and
    that meaningfully measure performance.

We found that SSA’s FY 2003 APP responded to many of our suggestions for
improvement from previous APPs and reflects SSA’s strong commitment to
GPRA objectives. Nevertheless, we concluded that opportunities existed for
SSA to establish performance indicators that will provide more meaningful
information to decisionmakers. For instance, SSA’s APP did not include goals
for all management challenges and major initiatives for which measurable



                                                   Management Issues •      page 59
Semiannual Report to Congress                     October 1, 2002 — March 31, 2003



       corrective action was possible. Additionally, we found that it lacked an
       appropriate array of outcome-based and service-related indicators. The
       APP also needed more information to permit an assessment of the nature
       and reasonableness of certain goals and a basis upon which to compare
       goals and subsequent performance with public expectations. Further, the
       APP could have displayed better integration of performance goals and the
       budgeted resources needed to achieve them.

       We acknowledged the evolving nature of GPRA reporting and recommended
       that additional actions be taken to make future APPs more useful to
       decisionmakers and allow better assessment of progress toward world-
       class service.

       Specifically, we recommended that SSA provide:

          • Goals for those management challenges and major initiatives for which
            measurable corrective action is possible, such as progress in reducing
            the ESF and monitoring representative payees.

          • Better outcome-based and service-related measures in the areas of
            800-number waiting time, notice clarity, SSN card issuance, validation
            of medical listings, and initial disability claims processing.

          • Information to more fully explain how performance will be measured, in
            such cases as the percent of employers rating SSA’s overall service and
            the implementation of activities to put the software and infrastructure
            in place for electronic processing of hearings and appeals.

          • Information to assess goals and subsequent performance that differ
            significantly with known public expectations, such as in the areas of
            800-number performance and hearings decisions.

          • Continued commitment to link its budget and performance data as
            envisioned by the President’s Management Agenda and OMB.

       SSA generally agreed with all of our recommendations, noting that actions
       to implement the recommendations will either be reflected in its FY 2004
       APP or later.

       Reliability of SSA’s Performance Data
       During FY 2003, we released six audit reports with the objective of
       determining the reliability of the performance data SSA used to measure its
       program performance. These reports also assessed the appropriateness of
       the performance indicators that were supported by the performance data
       reviewed.

       The six reports released were:



page 60   •   Management Issues
October 1, 2002 — March 31, 2003                 SSA Office of the Inspector General



  • Performance Indicator Audit: Appeals Council (Limited Distribution).

  • Performance Indicator Audit: Electronic Access.

  • Performance Indicator Audit: Paperless/Electronic Processing.

  • Performance Indicator Audit: Customer Satisfaction.

  • Performance Indicator Audit: Wage Reporting.

  • Performance Indicator Audit: Post-entitlement Automation Rate.

Five of the reports concluded that the performance measures were reliable.
We found that data used in the performance indicators to measure Appeals
Council processing time and efficiency was unreliable. Because of system
security concerns, the Appeals Council report was released with a limited
distribution, which prevents us from discussing specific details in this
report. We also determined that all of the performance indicators audited
were appropriate measures.

While most of the audited performance
indicators     were    reliable,   they
could still be improved. We made
recommendations for improving the
measurement processes and manner
of reporting on SSA’s performance. For
example, we recommended that SSA
accurately disclose the process used
to calculate its performance indicators
within SSA’s APP. SSA should also
improve controls over the processes
leading to its performance measure
reporting, such as, creating control
procedures to ensure OASDI post-entitlement automation rates are accurate.
Finally, SSA should eliminate instances of subjective determinations of
customer satisfaction survey responses from performance measures.

We also noted that SSA’s APP strategic objective A5 states that the Agency
seeks to “improve the efficiency of service to people applying for DI and
SSI disability benefits.” However, we found no supporting performance
indicators, and recommended that SSA include such indicators.




                                                 Management Issues •       page 61
Semiannual Report to Congress                      October 1, 2002 — March 31, 2003



       Issue 10: Human Capital
       GAO and OIG have identified specific human capital challenges and
       vulnerabilities that may impact the Agency’s ability to meet projected
       service delivery needs. Increasing demand on SSA for services, imminent
       retirement of a large portion of its workforce, changing needs of the public,
       and mixed success in implementing technology will challenge SSA’s ability
       to meet increasing demands on SSA services. SSA’s future will include
       major technological advances and exponential growth in workloads.

       This growth will occur at the same time SSA may face an unusual wave of
       management and staff retirements. Even at current staffing levels, SSA
       finds it difficult to maintain an acceptable level of service to the public,
       especially in its most complicated workloads. The Government is facing a
       major challenge to meet the current and emerging needs of the Nation’s
       citizens after a decade of downsizing and curtailing investments in human
       capital. Many agencies, including SSA share the challenge to address
       human capital shortfalls. Agency leaders need to make this a priority and
       apply tools and flexibilities already available to make substantial progress
       in managing their human capital.

       In January 2001, GAO added strategic human capital management to its
       list of Federal programs and operations identified as high-risk. The strategic
       human capital challenges it identified include the following:

          • Acquiring and developing staffs whose size, skills, and deployment
            meet Agency needs—ensuring current and future human capital needs
            are identified and gaps are filled through such efforts as effective
            recruiting, training, and contracting.

          • Leadership continuity and succession planning—ensuring there are
            qualified people available to assume top leadership positions before
            they become available.

          • Strategic human capital planning and organizational alignment—
            ensuring human capital strategies support strategic and program goals
            so an Agency’s mission, vision, and objectives are realized.

          • Creating results-oriented organizational cultures—ensuring staff
            is empowered and motivated in conjunction with workplace
            accountability.

       SSA has addressed its human capital challenge in its strategic plan. SSA’s
       goal “to strategically manage and align staff to support SSA’s mission”
       relates to the Agency’s management commitment to advance the economic
       security of the nation’s people. SSA will be faced with significant workload
       growth at the same time it is experiencing an increasing loss of staff due



page 62   •   Management Issues
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



to retirements. SSA will strive to meet these challenges by maintaining
a high-performance workforce and enhancing productivity through
automation, job enrichment and training, redistribution of staff to direct
service positions, succession planning, leadership development and other
service enhancements. Further, SSA’s strategies address the President’s
Management Agenda Human Capital initiative.




A Special Thank You

We would like to thank our entire OIG staff for their outstanding efforts and
contributions, without which this report would not have been possible.




                                                   Management Issues •       page 63
Semiannual Report to Congress   October 1, 2002 — March 31, 2003
October 1, 2002 — March 31, 2003      SSA Office of the Inspector General




                             Appendices




                                              Appendices    •   page 65
Semiannual Report to Congress   October 1, 2002 — March 31, 2003




page 66   •   Appendices
October 1, 2002 — March 31, 2003                                         SSA Office of the Inspector General



Appendix A

Resolving Audit Recommendations
The following chart summarizes Social Security Administration’s (SSA) responses to our
recommendations for the recovery or redirection of questioned and unsupported costs.
Questioned costs are those costs that are challenged because of a violation of law, regulation,
etc. Unsupported costs are those costs that are questioned because they are not justified by
adequate documentation. This information is provided in accordance with Public Law (P.L.) 96-
304 (the Supplemental Appropriation and Recession Act of 1980) and the Inspector General
Act of 1978, as amended.


                          Reports with Questioned Costs for the Reporting Period
                                 October 1, 2002 through March 31, 2003

                                                                        Number    Value Questioned          Value Unsupported

     A. For which no management decision had been made by the
        commencement of the reporting period.                             8            $3,287,778                $6,443,776

     B. Which were issued during the reporting period.                    7a           $6,435,042                $1,218,766

                          Subtotal (A + B)                                15           $9,722,820                $7,662,542

        Less:


     C. For which a management decision was made during the
        reporting period.                                                12b           $6,981,605                $6,443,776

        i.    Dollar value of disallowed costs.                           5            $5,372,248                               0

        ii.   Dollar value of costs not disallowed.                       7            $1,609,357                $6,443,776

     D. For which no management decision had been made by the
        end of the reporting period.                                      6            $2,741,215                $1,218,766


a.    See Reports with Questioned Costs in Appendix B of this report.
b.    Representative Payee Investigation of Puget Protective Payeeship (A-09-01-21045, 11/26/02) contained dollars that were
      disallowed and dollars not disallowed. Additionally, a management decision was made for only a portion of the questioned costs
      contained in the reports, Audit of the Administrative Costs Claimed by the Kansas Disability Determination Services (A-07-02-
      22003, 10/23/02) and Financial-Related Audit of the Harris County Guardianship Program—an Organizational Representative
      Payee for SSA (A-04-02-12020, 12/16/02).




                                                                                  Appendices         •   page 67
                  Semiannual Report to Congress                                       October 1, 2002 — March 31, 2003




The following chart summarizes SSA’s response to our recommendations that funds be put to
better use through cost avoidances, budget savings, etc.


              Reports with Recommendations that Funds Be Put to Better Use for the
                    Reporting Period October 1, 2002 through March 31, 2003

                                                                                     Number                 Dollar Value

     A. For which no management decision had been made by the
        commencement of the reporting period.                                            1                             $6,400

     B. Which were issued during the reporting period.                                  7a                     $93,772,040

                         Subtotal (A + B)                                                8                     $93,778,440

        Less:


     C. For which a management decision was made during the reporting
        period.

         i.   Dollar value of recommendations that were agreed to by
              management.


              (a) Based on proposed management action.                                   3                     $18,346,170

              (b) Based on proposed legislative action.                                  0                                     0

        ii.   Dollar value of costs not agreed to by management.                         2                         $125,331

                         Subtotal (i + ii)                                              5b                     $18,471,501

     D. For which no management decision had been made by the end of the
        reporting period.                                                                4                     $75,306,939


a.    See Reports with Funds Put to Better Use in Appendix B of this report.
b.    A management decision was made for only a portion of the funds put to better use contained in the report Administrative Costs
      Claimed by the Commonwealth of Puerto Rico Disability Determination Program (A-06-02-22072, 2/12/03).




                  page 68       •    Appendices
October 1, 2002 — March 31, 2003                              SSA Office of the Inspector General



Appendix B

Non-Monetary Reports Issued

                            Reports with Non-Monetary Findings
                           October 1, 2002 through March 31, 2003

     CIN                                            Report                                         Issue Date

                 Management Advisory Report: Limited Review of Connecticut Disability
 A-15-02-22040                                                                                         10/3/02
                 Determination Services’ Lease Costs
                 Financial-Related Audit of the Washington State Department of Social and
 A-13-02-12010   Health Services — An Organizational Representative Payee for the Social               10/8/02
                 Security Administration
                 Allegations of Inappropriate Pay and Travel Practices at the Philadelphia
 A-13-02-22097                                                                                         10/8/02
                 Regional Office (Limited Distribution)
                 Congressional Response Report: Status of Corrective Actions Taken in
 A-13-01-21046   Response to Recommendations in Fiscal Years 1997 Through 2000 Payment                 10/9/02
                 Accuracy Task Force Reports
                 Management Advisory Report: The Social Security Administration’s Oversight
 A-14-02-22026   of the Disability Determination Services’ Systems Security (Limited                   10/24/02
                 Distribution)
                 Management Advisory Report: Single Audit of the State of Illinois for the
 A-77-03-00001                                                                                         10/31/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of New Hampshire
 A-77-03-00002                                                                                         11/12/02
                 for the Fiscal Year Ended June 30, 2001

                 Inspector General Statement on the Social Security Administration’s Major
 A-02-03-13034                                                                                         11/15/02
                 Management Challenges

                 Congressional Response Report: Status of the Social Security
 A-03-03-23038                                                                                         11/18/02
                 Administration’s Earnings Suspense File

 A-15-02-12075   Fiscal Year 2002 Financial Statement Audit                                            11/19/02

                 Management Advisory Report: Single Audit of the State of Ohio for the Fiscal
 A-77-03-00003                                                                                         11/21/02
                 Year Ended June 30, 2001
                 Congressional Response Report: The Social Security Administration’s
 A-13-03-23051   Relocation of the Office of Hearings and Appeals in Columbus, Ohio (Limited           11/27/02
                 Distribution)
                 Management Advisory Report: Fiscal Year 2002 Quick Response Activities
 A-13-03-13031                                                                                         12/4/02
                 Summary Report

                 Management Advisory Report: Single Audit of the State of Louisiana for the
 A-77-03-00004                                                                                         12/11/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of Maine for the
 A-77-03-00005                                                                                         12/12/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of Montana for the
 A-77-03-00006                                                                                         12/16/02
                 2-Year Period Ended June 30, 2001

 A-14-03-13047   Evaluation of the Accelerated eDib System - Third Assessment                          12/20/02

                 Management Advisory Report: Physical Security for the Social Security
 A-14-02-32061   Administration’s Laptop Computers, Cellular Telephones, and Pagers (Limited           12/24/02
                 Distribution)
                 Review of Social Security Administration Controls over the Access, Disclosure
 A-08-02-22071                                                                                         12/30/02
                 and Use of Social Security Numbers by External Entities



                                                                      Appendices       •     page 69
          Semiannual Report to Congress                                  October 1, 2002 — March 31, 2003




                           Reports with Non-Monetary Findings
                          October 1, 2002 through March 31, 2003

    CIN                                            Report                                        Issue Date

                Review of the Social Security Administration’s Fiscal Year 2003 Annual
A-02-02-12033                                                                                      1/7/03
                Performance Plan

                Management Advisory Report: Single Audit of the State of New Mexico,
A-77-03-00007                                                                                     1/16/03
                Department of Education, for the Fiscal Year Ended June 30, 2001

                Management Advisory Report: Transactions Involving the Government
A-13-02-22094                                                                                     1/23/03
                Purchase Card (Limited Distribution)

A-15-02-11083   Performance Indicator Audit: Electronic Access                                    1/23/03

                Congressional Response Report: The Social Security Administration’s Efforts
A-09-03-23067                                                                                     1/24/03
                to Process Death Reports and Improve its Death Master File

A-15-02-11087   Performance Indicator Audit: Wage Reporting                                       1/28/03


A-02-02-11082   Performance Indicator Audit: Customer Satisfaction                                 2/4/03

                Management Advisory Report: Single Audit of the State of Rhode Island for
A-77-03-00009                                                                                     2/10/03
                the Fiscal Year Ended June 30, 2001

A-15-02-11085   Performance Indicator Audit: Appeals Council (Limited Distribution)               2/21/03


A-15-02-32092   Performance Indicator Audit: Postentitlement Automation Rate                      2/26/03

                Referring Potentially Fraudulent Enumeration Applications to the Office of the
A-14-03-23052                                                                                      3/3/03
                Inspector General

A-15-01-11033   Analysis of Multiple, Unrelated Title II Payments to the Same Bank Account         3/3/03

                Internal Control Review of the Remittance Process at the Social Security
A-15-02-22001                                                                                      3/3/03
                Administration’s Mid-Atlantic Program Service Center (Limited Distribution)
                Internal Control Review of the Remittance and Disbursement of Cash or
A-15-01-21031   Cash Equivalents at Social Security Administration Field Offices (Limited          3/5/03
                Distribution)
                Federal Agencies’ Controls Over the Access, Disclosure and Use of Social
A-08-03-13050                                                                                     3/11/03
                Security Numbers by External Entities

                Congressional Response Report: Social Security Administration Benefits
A-03-03-23053                                                                                     3/18/03
                Related to Unauthorized Work

A-15-02-11084   Performance Indicator Audit: Paperless/Electronic Processing                      3/18/03




          page 70     •   Appendices
October 1, 2002 — March 31, 2003                       SSA Office of the Inspector General



Reports Issued with Questioned Costs

                            Reports with Questioned Costs
                        October 1, 2002 through March 31, 2003

     CIN         Issue Date                             Report                              Dollar Amount

                              Audit of the Administrative Costs Claimed by the Kansas
 A-07-02-22003   10/23/02                                                                        $5,674,737
                              Disability Determination Services

                              Representative Payee Investigation of Puget Protective
 A-09-01-21045   11/26/02                                                                          $55,994
                              Payeeship (Limited Distribution)
                              Financial-Related Audit of the Harris County Guardianship
 A-04-02-12020   12/16/02     Program – an Organizational Representative Payee for the           $1,468,961
                              Social Security Administration
                              Management Advisory Report: Single Audit of the State of
 A-77-03-00008    1/27/03                                                                         $250,635
                              New York for the Fiscal Year Ended March 31, 2001

                              Administrative Costs Claimed by the Commonwealth of
 A-06-02-22072    2/12/03                                                                          $98,262
                              Puerto Rico Disability Determination Program
                              Management Advisory Report: Single Audit of the
 A-77-03-00010    3/12/03     Commonwealth of Puerto Rico, Department of the Family,                $4,527
                              for the Fiscal Year Ended June 30, 2000
                              Management Advisory Report: Single Audit of the
 A-77-03-00011    3/20/03     Commonwealth of Puerto Rico, Department of the Family,              $100,692
                              for the Fiscal Year Ended June 30, 2001

                                                                                 Total:      $7,653,808




Reports Issued with Funds Put to Better Use

                         Reports with Funds Put to Better Use
                        October 1, 2002 through March 31, 2003

     CIN         Issue Date                             Report                              Dollar Amount

                              Identifying Representative Payees Who Had Their Own
 A-01-02-12073   10/10/02     Benefits Suspended Under the Fugitive Provisions of Public          $118,931
                              Law 104-193
                              Audit of the Administrative Costs Claimed by the Kansas
 A-07-02-22003   10/23/02                                                                        $6,138,225
                              Disability Determination Services
                              Old-Age, Survivors and Disability Insurance and
 A-06-02-12012   10/30/02     Supplemental Security Income Payments to Deceased              $12,103,900
                              Beneficiaries and Recipients
                              Administrative Costs Claimed by the Commonwealth of
 A-06-02-22072    2/12/03                                                                         $586,584
                              Puerto Rico Disability Determination Program

                              Disability Determination Services’ Use of Volume
 A-07-02-12049    3/10/03                                                                    $13,882,919
                              Consultative Examination Providers

 A-01-02-12032    3/14/03     Screening Representative Payees for Fugitive Warrants          $19,571,271

                              The Social Security Administration’s Processing of Internal
 A-03-02-22068    3/18/03                                                                    $41,370,210
                              Revenue Service Overstated Wage Referrals

                                                                                 Total:     $93,772,040




                                                                 Appendices      •     page 71
Semiannual Report to Congress   October 1, 2002 — March 31, 2003




page 72   •   Appendices
October 1, 2002 — March 31, 2003                     SSA Office of the Inspector General



Appendix C

Reporting Requirements Under the Omnibus Consolidated
Appropriations Act for Fiscal Year 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act for 1997,
P.L. 104-208, we are providing requisite data for the first half of fiscal year (FY) 2003 from the
Offices of Investigations and Audit in this report.


Office of Investigations
We are reporting $30,695,820 in SSA funds as a result of our investigative activities in this
reporting period. These funds are broken down in the table below.



                                   Investigative Activities


                              1st Quarter             2nd Quarter                   Total

 Court Ordered
                                   $5,248,995               $7,842,245              $13,091,240
 Restitution
 Scheduled
                                   $8,380,280               $8,756,429              $17,136,709
 Recoveries

 Fines                               $121,483                 $225,600                     $347,083

 Settlements/
                                     $108,965                  $11,823                     $120,788
 Judgments

 TOTALS                         $13,859,723              $16,836,097               $30,695,820



Office of Audit
SSA management has informed us that it has completed implementing recommendations
from 3 audit reports during this time period valued at over $44 million.

SSA Incorrectly Paid Attorney Fees on Disability Income Cases When Workers’
Compensation Payments were Involved (A-04-98-62001, 3/8/00)

We recommended that SSA review the cases in our sample to determine the proper attorney
fee payment and take the required actions on the $18,410 in errors of which $17,238 were
overpayments and $1,172 were underpayments. The value of the projected dollar error to
the total population of workers’ compensation cases in the payment history system is over
$33.8 million.



                                                             Appendices    •   page 73
          Semiannual Report to Congress                   October 1, 2002 — March 31, 2003




Continuing Disability Reviews (CDR) for Supplemental Security Income (SSI)
Recipients Approved Based on Low Birth Weight (A-01-02-12031, 6/26/02)

We recommended that SSA identify low birth weight cases requiring CDRs each month instead
of the current semiannual selection process. The implemented recommendation is valued at
over $3.8 million.

Impact on SSA’s Programs When Auxiliary Beneficiaries Do Not Have Their Own
Social Security Numbers (SSN) (A-01-02-22006, 9/20/02).
We recommended that SSA add the SSNs to the Master Beneficiary Record (MBR) records
of all auxiliary beneficiaries currently receiving benefit payments. The implemented
recommendation is valued at over $6.4 million.




          page 74   •   Appendices
October 1, 2002 — March 31, 2003                                  SSA Office of the Inspector General



Appendix D

Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act for 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of Inspector General activities each semiannual period.


Office of Investigations

                      Total Restitution Reported by the Department of Justice
                         as Collected for the Social Security Administration

                        Total Number of
                                                              Court Ordered
     Fiscal           Individuals Assigned                                             Total Restitution
                                                                Restitution
     Year                Court Ordered                                                 Collected by DOJ
                                                              for This Period
                           Restitution

 2001                                                 670              $23,067,026                  $2,498,6861

 2002                                                 600              $18,068,423                      $2,643,872


 2003                                                 331              $13,091,240                       $307,902


 TOTALS                                          1,601                $54,226,689                   $5,450,460

1 Reflect correction of data from previous report.




                             Funds Received by the Office of Investigations
                                      Based on Recovery Actions

                                                                                         Actual Amount
                          Total Number of
     Fiscal                                                  Amount Scheduled             Recovered at
                          Recovery Actions
     Year                                                      for Recovery             the Close of the
                              Initiated
                                                                                         Investigation

 2001                                                1,994             $33,958,212                  $13,804,187


 2002                                                2,202             $29,434,025                      $8,765,025


 2003                                                1,700             $17,136,709                      $3,902,564


 TOTALS                                          5,896                $80,528,946                 $26,471,776




                                                                          Appendices    •   page 75
           Semiannual Report to Congress                                 October 1, 2002 — March 31, 2003




Office of Audit
The following chart summarizes the Agency’s responses to our recommendations for the
recovery or redirection of questioned and unsupported costs. This information is prepared in
coordination with the Agency’s management officials and is current as of March 31, 2003.



              Responses to OIG’s Recommendations for the Recovery or
                  Redirection of Questioned and Unsupported Costs

          Number of
                            Questioned/                         Amount            Amount
         Reports with                      Management
   FY                       Unsupported                    Collected or to be   Written-Off/    Balance
         Questioned                        Concurrence
                               Costs                           Recovered        Adjustments
            Costs


  2001       23             $135,100,905    $131,165,106      $87,667,320         $2,450,161    $45,113,849


  2002       13              $15,551,282      $7,515,730        $8,276,020        $8,041,929              0


  2003        7               $7,653,808      $5,208,579            $9,778           $38,170     $7,606,542


TOTALS       43         $158,305,995       $143,889,415      $95,953,118        $10,530,260    $52,720,391




           page 76      •    Appendices
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Appendix E

Significant Monetary Recommendations From Prior Fiscal Years for
Which Corrective Actions Have Not Been Completed

Old-Age, Survivors and Disability Insurance (OASDI) Benefits Paid to Fugitives
(A-01-00-10014, 8/29/00)

Recommendation: We recommended that SSA pursue legislation prohibiting payment of
OASDI benefits to fugitives similar to the provisions pertaining to Supplemental Security
Income (SSI) under P.L. 104-193.

Valued at: $39,646,884 in funds put to better use, based on legislative action.

Agency Response: SSA agreed that the proposal to suspend OASDI benefits for fugitive
felons, as is currently done in the SSI program, deserves serious consideration. Further, SSA
recognized that it may be viewed as problematic to have different fugitive felon standards for
the OASDI and SSI programs.

Corrective Action: A provision in H.R. 4070 introduced in March 2002, would deny title II
benefits to fugitive felons. H.R. 4070 was not enacted in the 107th Congress; however, similar
provisions were introduced in the 108th Congress in H.R. 743.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013, 8/28/00)

Recommendation: We recommended that SSA reach agreement with State agencies, which
either do not enter all fugitive felon data into the National Crime Information Center (NCIC)
or provide data to the United States Department of Agriculture, to obtain their fugitive
information in an electronic format on a routine basis.

Valued at: $76,418,468 in questioned costs and $29,856,060 in funds put to better use.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA has matching agreements with 20 States and 4 local law enforcement
jurisdictions. SSA has determined that 21 other States and the District of Columbia (D.C.)
report all warrants (but not parole/probation violators) to NCIC. The State of Iowa, while
refusing to sign an agreement with SSA, reports on paper to the local Office of the Inspector
General. SSA is receiving full warrant information from 42 States, D.C. and 4 local jurisdictions
and partial warrant data from 5 States. One State, Minnesota, is precluded by State law from
releasing the warrant data to SSA. Negotiations continue with the remaining 2 States (Arizona
and Nevada), as well as with the 5 States needing to report parole and probation violator
warrants.




                                                            Appendices    •   page 77
          Semiannual Report to Congress                       October 1, 2002 — March 31, 2003




Payments to Child Beneficiaries Age 18 or Over Who Were Neither Students Nor
Disabled (A-09-99-63008, 5/18/00)

Recommendation: We recommended that SSA modify its automated system to terminate
benefits to child beneficiaries at age 18 if they are neither under a disability or a full time
student.

Valued at: $435,282 in questioned costs.

Agency Response: SSA agreed that all child beneficiaries who are neither under a disability
nor full-time students should have their benefits automatically terminated at age 18.

Corrective Action: SSA plans to more fully automate this workload with implementation
of Release 3 of the Title II Redesign. Release 3 will provide the systems capability to:
1) terminate benefits to child beneficiaries at age 18 if they are neither under a disability
nor full-time students; and 2) automate the processing of many of the complex cases now
worked manually, such as those involving workers’ compensation. Some cases will still require
manual processing because of the level of complexity, e.g., triple entitlement. While it is not
possible to predict exact numbers of cases at this point, we anticipate that the majority of
this workload will be fully automated with Release 3, which is expected to be implemented by
April 2004.




          page 78    •   Appendices
October 1, 2002 — March 31, 2003                    SSA Office of the Inspector General



Appendix F

Significant Non-Monetary Recommendations From Prior Fiscal Years
for Which Corrective Actions Have Not Been Completed

Work Activity for SSNs Assigned for Nonwork Purposes in the State of Utah
(A-14-01-11048, 3/29/02)

Recommendation: We recommended that SSA work with Immigration and Naturalization
Service (INS), now incorporated into the Department of Homeland Security (DHS), to resolve
data compatibility problems associated with the nonwork earnings file provided by SSA and
involve employees familiar with the problem.

Agency Response: SSA agreed with the recommendation.

Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is
currently working on a proposal to expand the SSN electronic audit trail to capture information
that could also be useful in resolving data compatibility problems between SSA and DHS. At
this time, no milestone activities have been determined.

Recommendation: We recommended that SSA work to establish an agreement with the Office
of Child Support Enforcement (OCSE) for SSA to submit nonwork SSN records to OCSE each
quarter, and OCSE associates quarterly earnings with the records before returning them to
SSA.

Agency Response: SSA believes this recommendation may have merit.

Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a drivers
license or motor vehicle registration. This policy change closes opportunities for illegal
work. In addition, SSA is continuing to work with DHS on a number of fronts to improve the
enumeration process. Once SSA has assessed the impact of these activities, SSA will revisit
this recommendation and determine how to best proceed within the constraints of SSA’s
disclosure/privacy regulations and policies on working with and sharing information with
OCSE and DHS for the purposes of identifying persons who work illegally and employers who
hire such persons.

Recommendation: We recommended that SSA use the quarterly wage information or other
suitable methods to prevent the issuance of replacement Social Security cards when there
is evidence of illegal employment and to advise employers of nonwork status when verifying
employee SSNs.

Agency Response: SSA agreed that there should be tighter controls for issuing replacement
cards to aliens who are not authorized to work.

Corrective Action: SSA will investigate the best method for doing that, including the possibility
of issuing revised instructions and reminders on the policy on issuing replacement cards and
on updating Numident records. SSA will also explore appropriate mechanisms for helping DHS
monitor employment authorization.


                                                            Appendices    •   page 79
           Semiannual Report to Congress                      October 1, 2002 — March 31, 2003




Recommendation: We recommended that SSA match the quarterly nonwork earnings file with
the ESF to identify and report to INS (now in DHS) employers who consistently hire people
who are not authorized for employment and individuals who use, for employment, nonwork
SSNs and false identities.

Agency Response: SSA believes this recommendation may have merit.

Corrective Action: SSA will revisit this recommendation once an assessment of the impact of
previously referenced activities that are underway or planned is complete.

Performance Measure Review: Reliability of the Data Used to Measure the Timely
Processing of Disability Insurance Claims (A-02-99-11001, 10/2/01)

Recommendation: We recommended that SSA provide an adequate audit trail to document
the processes involved in the generation and accumulation of the performance measure.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Office of Systems (OS) is addressing this issue as it transitions
the Management Information Initial Claims Record functionality to the Title II Workload
Management Information System. A General Project Scope Agreement was agreed upon and
the planning and analysis for the first release was completed. Detailed functional requirements
are now being developed. A target implementation date for the first release is June 30, 2003.
Processing times will not be addressed until Release 3, therefore, the final target date has yet
to be determined.

Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01)

Recommendation: We recommended that SSA re-invest some of the savings realized by the
Enumeration at Birth (EAB) program. This could provide necessary funding, during future
contract modifications, for the Bureaus of Vital Statistics to perform periodic, independent
reconciliations of registered births with statistics obtained from hospitals’ labor and delivery
units, and periodically verify the legitimacy of sample birth records obtained from hospitals.

Agency Response: SSA agreed in principle with the recommendation.

Corrective Action: On March 31, 2003, SSA met with the National Association for Public Health
Statistics and Information System (NAPHSIS). NAPHSIS wants SSA to develop the complete
audit plan for them including a complete statistically valid sampling plan based on the number
of birthing hospitals in each State. Once the plan is developed, NAPHSIS would like SSA to tap
into other sources for funding a full audit program in each State.

Recommendation: We recommended that SSA enhance its duplicate record detection and
prior SSN detection routines to provide greater protection against the assignment of multiple
SSNs.




           page 80   •   Appendices
October 1, 2002 — March 31, 2003                      SSA Office of the Inspector General




Agency Response: SSA agreed on the issue of duplicate record detection. They also agreed
that there are cases where a subsequent SSN application is not identified due to minor
changes in names.

Corrective Action: For EAB cases, the duplicate record detection routine currently considers
two SSN applications to be duplicate only if the required data fields match exactly, including
birth certificate numbers. For example, if the birth certificate numbers for two records are
different, the records are not treated as possible duplicates even if the other data fields are
identical. Agreement has been reached to have the routine consider two SSN applications to
be duplicate if all of the required data fields match exactly, even if the birth certificate numbers
are different. The Office of Operations and OS recently met on the information technology
plans and no decisions were made to implement the plans at this time.

For nonEAB cases, OS staff met and discussed this recommendation and determined it would
be possible to modify the automated enumeration screening process to detect variations in
the spelling of applicant names. However, while this would provide greater protection against
the assignment of multiple SSNs, there would be undesirable consequences. It would create
delays in the processing of multiple birth cases. The envisioned routine would catch some,
but not all, of the 93 multiple SSN examples we cited. The findings have been shared with the
user community.

Payments Made to Selected Representative Payees after the Deaths of Social
Security Beneficiaries (A-13-01-21028, 9/18/01)

Recommendation: We recommended that SSA resolve beneficiary date-of-death discrepancies
we identified and develop and implement procedures for the timely and accurate recordation
of dates of death.

Agency Response: SSA has already begun to correct the records containing date of death
discrepancies.

Corrective Action: SSA will review the procedures the payee has implemented to ensure
compliance with our regulations and to prevent future occurrences of this nature. In addition, a
new Death Alert, Control and Update System process is scheduled to be completed in FY 2003
which will identify deceased representative payees in the Representative Payee System.

Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027, 8/21/01)

Recommendation: We recommended that SSA collect each attorney’s SSN, name and address
information so IRS Form 1099 can be issued to attorneys.

Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS
Form 1099 to attorneys and is developing a business process for issuing these forms.




                                                              Appendices    •   page 81
          Semiannual Report to Congress                      October 1, 2002 — March 31, 2003




Corrective Action: The Executive Task Force has established a target of issuing Form 1099
to attorneys in January 2005 (representing attorneys fees received during tax year 2004).
OS is currently conducting planning and analysis sessions to plan and develop systems
enhancements necessary to collect the appropriate attorney data and issue the Form 1099.

Audit of SSA’s FY 2001 APP (A-02-00-10038, 6/18/01)

Recommendation: We recommended that SSA coordinate with the Centers for Medicare and
Medicaid Services to determine which Agency should establish performance goals for service
to Medicare recipients.

Agency Response: SSA will explore the feasibility of establishing such a goal.

Corrective Action: SSA has discussed this recommendationwith the Centers for Medicare and
Medicaid Services. At this time an implementation date has not been set.

Procedures for Verifying Evidentiary Documents Submitted With Original SSN
Applications (A-08-98-41009, 9/19/00)

Recommendation: We recommended that SSA continue efforts to establish an implementation
date for planned system controls that will interrupt SSN assignment when multiple cards
are mailed to common addresses not previously determined to be legitimate recipients (for
example, charitable organizations) and/or when parents claim to have had an improbably
large number of children.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Agency continues its efforts to implement enhancements in the
Modernized Enumeration System (MES). The General Project Scope Agreement (PSA)
for this initiative was signed in November 2000. It divides the effort into three separate
releases. The PSA for Release 1, which will handle the “too-many-children” issue, was signed
December 2000 and scheduled for implementation March 2004. Release 2 will interrupt
processing for “too-many-cards” to the same address. Release 3 will expand the capabilities
of the use of the development worksheets implemented in Releases 1 and 2. Also, the MES
investigate process will be revised to include all alert conditions on the same feedback/
investigate message. Implementation dates for Releases 2 and 3 have not yet been
determined.

SSA is Pursuing Matching Agreements with New York and Other States Using
Biometric Technologies (A-08-98-41007, 1/19/00)

Recommendation: SSA should pursue a matching agreement with New York so that the
Agency can use the results of the State’s biometric technologies to reduce and/or recover any
improper benefit payments.

Agency Comments: SSA agreed with the recommendation.




          page 82    •   Appendices
October 1, 2002 — March 31, 2003                     SSA Office of the Inspector General




Corrective Action: The Office of Disclosure Policy (ODP) developed a draft Computer Matching
Privacy Protection Act agreement and sent it for component comments in June 2001. ODP
met with OIG on January 24, 2002 to discuss the outstanding issues that need to be resolved
before any match is undertaken. There is still a need for a component sponsor, a cost benefit
analysis, and the development of a detailed workplan. A meeting was held in March 2002 with
privacy experts to discuss the match and it was determined that a new submission for SSA’s
Data Integrity Board will be completed with our assistance.

Subsequent to the March 2002 meeting, we completed a new draft proposal and distributed the
draft for component comment. In reply, there were several specific issues raised that needed
to be addressed before the proposal is taken to the Data Integrity Board for consideration.

Recommendation: SSA should initiate pilot review to assess the cost efficiency of matching
data with other States that have employed biometrics in their social service programs.

Agency Response: SSA agreed with the recommendation.

Corrective Action: A memorandum of understanding (MOU) for applicants between SSA and
the New York State Office of Temporary and Disability Assistance was signed June 2001 to use
finger imaging data captured by New York State when individuals apply for public assistance.
A biometric pilot in New York was scheduled to begin sometime in December 2001. The Office
of Disclosure Policy received comments from all SSA components on a proposed Federal
Register notice that would have announced the changes to existing systems of record that are
related to this project. Due to the reaction from SSA components, this project is on hold.

Since the MOU, the pilot methodology has been revised considerably. The new method of
verifying claimant identity will be nonelectronic. SSA will begin three State-level projects
which involves the verification, via photograph, of the identity of an individual at a consultative
examination requested by the DDS. Photographs taken of claimants applying for disability
benefits will be taken and made part of the disability claims file. The evidence collected
will be used both in initial claim situations and subsequently to verify a claimant’s identity
during redeterminations and continuing disability reviews. It is anticipated that the study will
provide data regarding the rate of identity match/nonmatch at the time of the exam and the
rate of claimants who have photographic identification available at the initial interview in the
field office. The proposal included both title II and title XVI adult applicants. Because of the
mandatory nature of the provisions, a new regulation is needed to deny claims if consent
for being photographed is not given. A regulation has been drafted and will be sent to the
Office of Management and Budget (OMB).

Nonresponder Representative Payee Alerts for SSI Recipients (A-09-96-62004,
9/23/99)

Recommendation: We recommended that SSA develop procedures for employees to redirect
benefit checks to field offices (and require representative payees to provide the accounting
forms before releasing the checks) in instances where other attempts to obtain the required
forms have been unsuccessful.


                                                             Appendices    •   page 83
          Semiannual Report to Congress                      October 1, 2002 — March 31, 2003




Agency Response: SSA agreed, in part. When a representative payee does not respond or
will not cooperate after repeated attempts to obtain an annual accounting, the field office is
required to consider whether a change of payee is necessary. When the field office determines
that a change of payee is necessary, they develop for a successor payee. If a payee is not
readily available, the beneficiary is paid directly or placed in suspense status under certain
limited circumstances.

Corrective Action: In February 2000, as part of a package of improvements to the payee
monitoring process, SSA proposed legislation to redirect benefit checks when representative
payees fail to complete the required accounting form. This change was included in legislation
that was adopted by the House Ways and Means Committee in September 2000 but not
enacted into law. SSA has included this legislative change as part of the FY 2003 legislative
package that was sent to OMB in October 2001. A similar provision has been introduced in the
108th Congress. SSA has expressed its support for this provision and no Agency actions will
be targeted until the legislation has been approved.




          page 84    •   Appendices
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



Appendix G

Significant Management Decisions With Which the Inspector
General Disagrees

Referring Potentially Fraudulent Enumeration Applications to OIG
(A-14-03-23052, 3/3/03)

Recommendation: We recommended that SSA change its policy and require employees to
retain fraudulent or suspect documentation submitted by SSN applicants.

Agency Response: SSA disagreed because at the time of the initial SSN interview, SSA
employees do not know if a document will be determined fraudulent. SSA employees depend
on the issuing source to determine document validity. On June 1, 2002, SSA began verifying
all birth records with the custodian of records for U.S. born SSN applicants 1 year old or
older. Since September 2002, SSA verifies alien status for all noncitizen applicants with INS
(now DHS). In addition, in SSA’s Brooklyn Social Security Card Center, our agents are readily
available, and in certain cases involving evidence of fraud, can confiscate suspect documents.
However, in all other offices, due to concerns for the safety of SSA employees who would
be responsible for confiscating possible fraudulent documents, current procedure is to copy
documents in suspect cases.

Review of SSA’s FY 2003 Annual Performance Plan (A-02-02-12033, 1/7/03)

Recommendation: We recommended that SSA provide goals for the management challenges
and major initiatives for which measurable corrective action is possible, such as progress in
reducing the Earnings Suspense File (ESF) and monitoring representative payees.

Agency Response: While the FY 2003 annual performance plan (APP) does not contain specific
measures for the management challenges for the ESF and for monitoring representative
payees, SSA does include an informative discussion of their means and strategies for both of
them. Information regarding the specific items cited is as follows:

  • ESF: SSA plans to include performance indicators for reducing the         size of the ESF in
    their FY 2004 APP and the new Strategic Plan.

  • Representative Payee Management: SSA has activities underway to ensure the timeliness
    and accuracy of representative payee actions, however, it is not yet prepared to set a
    new measure. SSA has an internal plan to establish an ongoing integrity review program
    for the payee accounting process that will permit the Agency to assess both the accuracy
    and timeliness of the payee accounting process. In addition, SSA implemented a three-
    phase pilot to evaluate the representative payee program. The first two phases dealt
    with the capability determination process and the change in payee process, and have
    been completed. The third and final phase is intended to test the feasibility of an ongoing
    integrity review program. If successful, and implemented nationally, it will allow SSA to
    measure the timeliness and accuracy of representative payee accounting.



                                                           Appendices    •   page 85
          Semiannual Report to Congress                     October 1, 2002 — March 31, 2003




Obstacles to Reducing SSN Misuse in the Agriculture Industry
(A-08-99-41004, 1/22/01)

Recommendation: We recommended that SSA establish goals and measures, in accordance
with the Government and Performance Results Act of 1993, that track SSA’s success in
reducing the growth and size of the ESF.

Agency Response: SSA initially agreed that a performance measure related to the steps being
taken to limit the growth of the ESF may be appropriate. However, SSA Deputy Commissioners
discussed this recommendation and decided not to implement it. SSA has determined that a
measurement of the number of items that initially are sent to the ESF is not needed at this
time. This is due to many conditions including:

  • SSA has no control over what employers send.

  • Many problems occur due to name presentation problems. Employers do not have a
    legal right to see employees’ Social Security cards to get the correct spelling and name
    presentation.

  • Even if employers see the cards, they may not be able to differentiate the last names
    from the middle names. SSA is working on revising the Social Security card to separate
    the last names, but the changes have not yet been made.

SSA will institute a performance measure that deals with finding items in the ESF and placing
them on individual earnings records. SSA will also measure the number of items that SSA
deletes from the ESF, such as certain penalties in section 208 of the Social Security Act and
the Identity Theft and Assumption Deterrence Act.




          page 86   •   Appendices
October 1, 2002 — March 31, 2003                 SSA Office of the Inspector General



Appendix H

Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.

                                          Requirement                                  Pages


 Section 4(a)(2)      Review of legislation and regulations                             N/A


 Section 5(a)(1)      Significant problems, abuses, and deficiencies                   4-63


 Section 5(a)(2)      Recommendations with respect to significant
                                                                                       4-63
                      problems, abuses, and deficiencies

 Section 5(a)(3)      Recommendations described in previous Semiannual           Appendices
                      Reports on which corrective actions are incomplete           E&F

 Section 5(a)(4)      Matters referred to prospective authorities and the
                                                                                       4-63
                      prosecutions and convictions which have resulted

 Sections 5(a)(5) &
                      Summary of instances where information was refused                N/A
 Section 6(b)(2)


 Section 5(a)(6)      List of audits                                             Appendix B


 Section 5(a)(7)      Summary of particularly significant reports                      18-63


                      Table showing the total number of audit reports and
 Section 5(a)(8)                                                                 Appendix A
                      total dollar value of questioned costs

                      Table showing the total number of audit reports and
 Section 5(a)(9)                                                                 Appendix A
                      total dollar value of funds put to better use

                      Audit recommendations more than 6 months old for
 Section 5(a)(10)                                                                Appendix A
                      which no management decision has been made

                      Significant management decisions that were revised
 Section 5(a)(11)                                                                       N/A
                      during the reporting period

                      Significant management decisions with which the
 Section 5(a)(12)                                                                Appendix G
                      Inspector General disagrees




                                                         Appendices    •    page 87
Semiannual Report to Congress   October 1, 2002 — March 31, 2003




page 88   •   Appendices
October 1, 2002 — March 31, 2003                   SSA Office of the Inspector General



Appendix I

Glossary


        Abbreviation                                      Definition

 AeDib                             Accelerated Electronic Disability System
 APP                               Annual Performance Plan
 BIC “D”                           Beneficiary Identification Code “D” (Widows and Widowers)
 CDI                               Cooperative Disability Investigations
 CDR                               Continuing Disability Review
 CEO                               Chief Executive Officer
 CFO Act                           Chief Financial Officers Act of 1990
 CMP                               Civil Monetary Penalty
 DACUS                             Death Alert, Control, and Update System
 DDS                               (State) Disability Determination Services
 DI                                Disability Insurance
 DMF                               Death Master File
 DHS                               Department of Homeland Security
 DOJ                               Department of Justice
 EAB                               Enumeration at Birth
 eDib                              Electronic Disability
 ESF                               Earnings Suspense File
 EVS                               Enumeration Verification Service
 FBI                               Federal Bureau of Investigation
 FO                                Field Office
 FTC                               Federal Trade Commission
 FY                                Fiscal Year
 GAO                               General Accounting Office
 GPRA                              Government Performance and Results Act
 HCGP                              Harris County Guardianship Program
 HHS                               Department of Health and Human Services
 IG                                Inspector General
 INS                               Immigration and Naturalization Service
 IO                                Immediate Office of the Inspector General
 IRS                               Internal Revenue Service
 MAFDUP                            Master File Duplicate Detection Operation
 MBR                               Master Beneficiary Record
 MEF                               Master Earnings File
 MES                               Modernized Enumeration Sysytem


                                                           Appendices    •   page 89
          Semiannual Report to Congress                     October 1, 2002 — March 31, 2003




MOU                               Memorandum of Understanding
MRPF                              Master Representative Payee File
NCIC                              National Crime Information Center
NFRP                              National Federation of Retired Persons
OA                                Office of Audit
OASDI                             Old-Age, Survivors and Disability Insurance
OASI                              Old-Age and Survivors Insurance
OCIG                              Office of the Counsel to the Inspector General
ODP                               Office of Disclosure Policy
OEO                               Office of Executive Operations
OHA                               Office of Hearings and Appeals
OI                                Office of Investigations
OIG                               Office of the Inspector General
OMB                               Office of Management and Budget
OPM                               Office of Personnel Management
OTSO                              Office of Telecommunications and Systems Operations
PATF                              Payment Accuracy Task Force
PCIE                              President’s Council on Integrity and Efficiency
PDD                               Presidential Decision Directive
P.L.                              Public Law
PSA                               Project Scope Agreement
PwC                               PricewaterhouseCoopers LLP
SSA                               Social Security Administration
SSI                               Supplemental Security Income
SSN                               Social Security Number
SSR                               Supplemental Security Record
title II (Social Security Act)    Old-Age, Survivors and Disability Insurance
title XVI (Social Security Act)   Supplemental Security Income
TY                                Tax Year
USMS                              United States Marshals Service
VMP                               Volume Medical Providers
WC                                Workers Compensation
WTC                               World Trade Center




          page 90   •   Appendices
Social Security Administration
Office of the Inspector General
Semiannual Report to Congress

Mission Statement                        Vision and Values
By conducting independent and            We are agents of positive change
objective audits, evaluations, and       striving for continuous improvement
investigations, we improve the SSA       in SSA’s programs, operations,                                               Inspector General
programs and operations and protect      and management by proactively
them against fraud, waste, and           seeking new ways to prevent and                                              James G. Huse, Jr.
abuse. We provide timely, useful,        deter fraud, waste, and abuse.
and reliable information and advice      We are committed to integrity              Chief of Staff
                                                                                                               Deputy Inspector General
to Administration officials, Congress,   and to achieving excellence by          Immediate Office of
and the public.                          supporting an environment that         the Inspector General                    Jane E. Vezeris
                                         encourages employee development         Richard A. Rohde
                                         and retention, and fosters diversity
                                         and innovation, while providing a
                                         valuable public service.
                                                                                  Chief Counsel            Assistant Inspector            Assistant Inspector           Assistant Inspector
                                                                                      to the                    General                        General                       General
                                                                                Inspector General              for Audit                  for Investigations         for Executive Operations

                                                                                 Kathy A. Buller           Steven L. Schaeffer           Patrick P. O’Carroll          Stephanie J. Palmer




                                                                                 Deputy Chief Counsel to   Deputy Assistant Inspector   Deputy Assistant Inspector   Deputy Assistant Inspector
                                                                                  the Inspector General       General for Audit         General for Investigations     General for Executive
                                                                                                                                                                            Operations
                                                                                     Glenn E. Sklar              Gale S. Stone               Steve W. Mason             Robert L. Meekins
        How to Report Fraud
The SSA OIG Fraud Hotline offers a means for you
to provide information on suspected fraud, waste,
and abuse. If you know of current or potentially
illegal or improper activities involving SSA programs
or personnel, we encourage you to contact the SSA
OIG Fraud Hotline.                                                       Social Security Administration
                                                                         Office of the Inspector General
Call                 1-800-269-0271
                                                                         Semiannual Report to Congress
Write                Social Security Administration
                     Office of the Inspector General
                                                                         October 1, 2002 thru March 31, 2003
                     Attention: SSA Fraud Hotline
                     P. O. Box 17768
                     Baltimore, MD 21235
Fax                  410-597-0118

Internet              www.socialsecurity.gov/oig

        To obtain additional copies of this report, visit our website,
             www.socialsecurity.gov/oig or call 410-966-4020

                           SSA Pub. No. 85-007
                           Published May 2003




                                                                                                   To Preserve and Protect
